                                              OFFICE OF THE
                                              CHIEF FINANCIAL OFFICER

Office of Inspector General—Office of Audit




                                              MANAGEMENT ADVISORY COMMENTS
                                              IDENTIFIED IN AN AUDIT OF THE
                                              CONSOLIDATED FINANCIAL STATEMENTS
                                              FOR THE YEAR ENDED SEPTEMBER 30, 2008




                                              This report was prepared by KPMG LLP, under contract to the U.S.
                                              Department of Labor, Office of Inspector General, and by acceptance, it
                                              becomes a report of the Office of Inspector General.




                                                                                  Assistant Inspector General
                                                                                  U.S. Department of Labor




                                                                               Date Issued: March 18, 2009
                                                                           Report Number: 22-09-006-13-001
                                                              Management Advisory Comments Identified in an
                                                               Audit of the Consolidated Financial Statements
                                                                       For the Year Ended September 30, 2008


Table of Contents
                                                                                                                    PAGE

EXECUTIVE SUMMARY ................................................................................................ 3
 1.   Consolidated Financial Statements and Closing Package Review
      Processes......................................................................................................... 7
 2.   Certain Improvements Needed in Financial Reporting................................. 9
 3.   Budgetary Reconciliations and Analyses.................................................... 11
 4.   Budget Apportionment Process ................................................................... 18
 5.   Recording Upward Adjustments Transactions ........................................... 20
 6.   Recording Budget Authority......................................................................... 23
 7.   Grant Monitoring Controls ............................................................................ 25
 8.   Grant Closeouts ............................................................................................. 29
 9.   Grant Accrual Review Controls .................................................................... 33
 10.  Statement of Differences (FMS-6652) Reconciliation Process .................. 34
 11.  Supervisory Review of the Monthly Reconciliation of State Deposits...... 38
 12.  Improper Cutoff of Collections Related to Custodial Revenue.................. 41
 13.  Interest Receivable Calculation and Accural Related to Custodial
      Receivables .................................................................................................... 43
 14.  Recording Refunds and Collection Fees Related to Custodial Activities. 46
 15.  Reconciliations between MSHA Standardized Information System (MSIS)
      and DOLAR$................................................................................................... 48
 16.  Controls over Internal-Use Software............................................................ 49
 17.  Accounting for Costs on Certain Job Corps Contracts ............................. 50
 18.  Reestablishment of the Unemployment Compensation Advisory Council
      (UCAC) ............................................................................................................ 52
 19.  Monitoring Controls over Child Agency Financial Data ............................. 53
 20.  Accounting for the Federal Employees’ Compensation Act (FECA)
      Activities......................................................................................................... 57
 21.  Controls over the Integrated Federal Employees Compensation System
      (iFECS)............................................................................................................ 58
 22.  Process for Completing Background Checks Investigations.................... 60
 23.  Controls over the Maintenance of Procurement Supporting Documents. 62
APPENDIX A ................................................................................................................ 65
 Acronyms and Abbreviations.................................................................................. 65




Prepared by KPMG LLP                                                                                                        1
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008




                        PAGE INTENTIONALLY LEFT BLANK




2                                                                      Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008



Executive Summary
KPMG LLP, under contract to the United States Department of Labor (DOL or the
Department), Office of Inspector General (OIG), audited the DOL’s consolidated
financial statements as of and for the year ended September 30, 2008. The audit was
conducted in accordance with auditing standards generally accepted in the United
States of America; Government Auditing Standards, issued by the Comptroller General
of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04,
Audit Requirements for Federal Financial Statements. The objective of the audit was to
express an opinion on the fair presentation of DOL’s consolidated financial statements.
Additionally, other objectives include expressing an opinion on DOL’s compliance with
requirements of section 803(a) of the Federal Financial Management Improvement Act
(FFMIA) of 1996 (Public Law 104-278), based on an examination.

In planning and performing the audit, DOL’s internal control over financial reporting was
considered in order to determine auditing procedures for the purpose of expressing an
opinion on the consolidated financial statements. The objective of the audit was not to
provide assurance on DOL’s internal control over financial reporting; accordingly, such
an opinion was not provided. However, certain matters were noted involving internal
control and its operation that were considered to be significant deficiencies, and certain
other matters were noted that were considered to be management advisory comments.

This report was prepared to provide information to management that could help in the
development of corrective actions for the management advisory comments identified in
the audit. A separate report will be issued to the Chief Information Officer and the Chief
Financial Officer containing management advisory comments pertaining to the audit
procedures performed over the Department’s general and application controls over
information technology (IT) systems that support the consolidated financial statements.

Significant Deficiencies

Details over the significant deficiencies, listed below, are included in the Independent
Auditors’ Report found in DOL’s FY 2008 Performance and Accountability Report.


   1. Lack of Adequate Controls over Access to Key Financial and Support Systems
   2. Weakness Noted over Payroll Accounting
   3. Lack of Segregation of Duties over Journal Entries




Prepared by KPMG LLP                                                                        3
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008

Management Advisory Comments

Although not considered to be significant deficiencies, certain other non-IT matters were
noted during the audit which we would like to bring to management’s attention. These
findings and recommendations are presented in this report.




4                                                                      Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-09-006-13-001
                                                                  Management Advisory Comments Identified in an
                                                                   Audit of the Consolidated Financial Statements
                                                                           For the Year Ended September 30, 2008



                            KPMG LLP
                            2001 M Street, NW
                            Washington, DC 20036

February 3, 2009


Mr. Elliot P. Lewis, Assistant Inspector General for Audit
Ms. Lisa Fiely, Acting Chief Financial Officer
U.S. Department of Labor
Washington, DC 20210

Mr. Lewis and Ms. Fiely:

We have audited the consolidated financial statements of the U.S. Department of Labor
(DOL) for the year ended September 30, 2008, and have issued our report thereon
dated November 14, 2008. In planning and performing our audit of the consolidated
financial statements of DOL, in accordance with auditing standards generally accepted
in the United States of America, we considered DOL’s internal control over financial
reporting (internal control) as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the consolidated financial statements but not for
the purpose of expressing an opinion on the effectiveness of DOL’s internal control.
Accordingly, we do not express an opinion on the effectiveness of DOL’s internal
control.

During our audit we noted certain matters involving internal control and other
operational matters that do not relate to information technology and are presented for
your consideration. These comments and related recommendations, all of which have
been discussed with the appropriate members of management, are intended to improve
internal control or result in other operating efficiencies and are summarized in Exhibit I,
Management Advisory Comments. Comments involving internal control and other
operational matters noted that relate to information technology will be presented in a
separate letter to you and the Chief Information Officer.

In addition, we identified certain deficiencies in internal control that we consider to be
significant deficiencies, and communicated them in our Independent Auditors’ Report
dated November 14, 2008.

Our audit procedures are designed primarily to enable us to form an opinion on the
consolidated financial statements, and therefore may not bring to light all weaknesses in
policies or procedures that may exist. We aim, however, to use our knowledge of
DOL’s organization gained during our work to make comments and suggestions that we
hope will be useful to you.

                               KPMG LLP, a U.S. limited liability partnership, is the U.S.
                               member firm of KPMG International, a Swiss cooperative.



Prepared by KPMG LLP                                                                                           5
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008




We would be pleased to discuss these comments and recommendations with you at
any time.

This communication is intended solely for the information and use of DOL
management, DOL’s Office of Inspector General, others within the organization, the
Office of Management and Budget, the Government Accountability Office, and the
U.S. Congress, and is not intended to be and should not be used by anyone other
than these specified parties.


Very truly yours,




6                                                                      Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I

1. Consolidated Financial Statements and Closing Package Review Processes

During our review of DOL’s draft consolidated financial statements, we noted the
following errors:
   The balances of expended appropriations and unexpended appropriations at fiscal
    year end were misstated by approximately $716 million. This error was corrected in
    early November for the final consolidated financial statements.
   A difference of $417.8 million existed between the balance of permanently not
    available appropriations reported on the combined statement of budgetary resources
    (SBR) and appropriations not available reported on the consolidated statement of
    changes in net position. The difference is related to rescissions that were
    erroneously excluded from the appropriations not available balance reported on the
    consolidated statement of changes in net position. This error was not corrected and
    was included in the FY 2008 Summary of Audit Differences, which was attached to
    the FY 2008 Management Representation Letter.
   In Note 2, DOL erroneously classified $277.9 million of Fund Balance with Treasury
    (FBWT) that had not been apportioned yet as unobligated balance available instead
    of unobligated balance unavailable.      This error was corrected in the final
    consolidated financial statements.
   In Note 15, DOL misclassified $192 million of costs as income maintenance instead
    of employment and training. This error was corrected in the final consolidated
    financial statements.

During our review of DOL’s draft closing package, we noted the following errors, all of
which DOL corrected prior to the final submission of the closing package:
   DOL did not disclose the subsequent event related to the Black Lung Disability Trust
    Fund.
   DOL did not disclose the required supplementary stewardship information related to
    Human Capital.
   DOL did not record the proper balances for the Unemployment Trust Fund
    Sensitivity Analysis required as supplementary information.
In addition, we noted that the U.S. Department of Labor Manual Series (DLMS) does
not include specific guidance on the review procedures of the consolidated financial
statements and closing package that would guide DOL supervisors during their reviews.

The above issues were caused because the Office of Chief Financial Officer (OCFO) is
not performing a sufficiently detailed review of the consolidated financial statements and
closing package to ensure that misstatements, errors, and omissions related to the
statements, notes, required supplementary information, and required supplementary
stewardship information were detected and corrected. This resulted in the need to

Prepared by KPMG LLP                                                                          7
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I
correct the consolidated financial statements and closing package prior to final
submission, causing delays in the financial reporting process.

U.S. Government Accountability Office’s (GAO), Standards for Internal Control in the
Federal Government (Standards), states, “Internal control should generally be designed
to assure that ongoing monitoring occurs in the course of normal operations. It is
performed continually and is ingrained in the agency’s operations. It includes regular
management and supervisory activities, comparisons, reconciliations, and other actions
people take in performing their duties.”

Office of Management and Budget (OMB) Circular No. A-123, Management’s
Responsibility for Internal Control, states “The agency head must establish controls that
reasonably ensure that obligations and costs are in compliance with applicable laws;
funds, property, and other assets are safeguarded against waste, loss, unauthorized
use, or misappropriation; and revenues and expenditures applicable to agency
operations are properly recorded and accounted for to permit the preparation of
accounts and reliable financial and statistical reports...”

Recommendation

We recommend that the Chief Financial Officer ensure that OCFO personnel perform a
more detailed review of all information in the Performance and Accountability Report
(PAR) and closing package including financial statements, notes, supplementary
information, and supplementary stewardship information. Furthermore, the Chief
Financial Officer should update DLMS to include guidance for DOL supervisors to follow
during their reviews, including procedures for comparing financial data reported on the
different statements and notes to ensure accuracy and consistency.

Management’s Response

Management disagrees with the auditors’ characterization that the OCFO’s review
procedures are inadequate or that the conditions noted caused delays in the financial
reporting process. Most of the errors and omissions cited were corrected in the final
consolidated financial statements and are in the final Governmentwide Financial Report
System (GFRS) closing package submission.

OCFO will, however, further strengthen the policies and procedures for reviewing the
consolidated financial statements and GFRS closing package prior to final submission.

The detailed written procedures will be developed not later than March 31, 2009, but will
not be made a part of DLMS until the effectiveness of the enhanced procedures are
tested during the FY 2009 reporting cycle.




8                                                                      Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I
Auditors’ Conclusion

Although the OCFO stated that it does not concur with the characterization of our
comment, the OCFO has taken steps to address our recommendation. Therefore, this
recommendation is considered resolved and open. FY 2009 audit procedures will
determine whether this recommendation has been adequately addressed and can be
considered closed.

2. Certain Improvements Needed in Financial Reporting

During the FY 2006 audit, we noted that programs and costs in the Statement of Net
Cost (SNC) and the related suborganizations in Note 15 did not clearly link to the
strategic goals included in Management’s Discussion and Analysis (MD&A). In addition,
DOL has historically included the Pension Benefit Guarantee Corporation (PBGC) in its
MD&A and Performance Section and excluded it from its consolidated financial
statements. In FY 2007, DOL obtained a permanent waiver from OMB to exclude
PBGC from DOL’s reporting entity and therefore, from its consolidated financial
statements; however, this waiver did not address performance results. Absent
discussion in the waiver about performance results and given the inclusion of PBGC in
DOL’s budget, DOL believes it should include PBGC performance results in its MD&A
and Performance Section.

As a result, we included this as a finding in the FY 2007 Management Advisory
Comments report and made the following recommendations:

We recommend that the Chief Financial Officer:

1. Develop and implement procedures to better link the SNC to DOL’s strategic
   goals.
2. Formally consult with OMB to determine whether or not PBGC performance
   information should be reported in DOL’s PAR.

During the FY 2008 audit, we reviewed the MD&A in DOL FY 2008 PAR and noted that
the program level audited net costs in the SNC were not directly linked to the net costs
of the strategic goals reported in the MD&A. In addition, we noted that the MD&A and
the Performance Section were not consistent with financial information, as PBGC
performance results were included in these sections; however, PBGC is properly
excluded from DOL’s consolidated financial statements.

Section II.2.6 of OMB Circular No. A-136, Financial Reporting Requirements, states
“Entities should strive to articulate efficiency and effectiveness by developing and
reporting objective measures that, to the extent possible, indicate result achieved and
relate major goals and objectives in their strategic plan to cost categories (i.e.,
responsibility segments) presented in the entity’s Statement of Net Cost (SNC).”


Prepared by KPMG LLP                                                                          9
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I
In addition, section II.4.4.1 of OMB Circular No. A-136 states, “The SNC should show
the net cost of operations for the reporting entity, as a whole, by major program, which
should relate to the major goal(s) and output(s) described in the entity’s strategic and
performance plans, required by [Government Performance and Results Act (GPRA)].”

Section II.1 of OMB Circular No. A-136 states, “Under the Reports Consolidation Act of
2000 (Pub. L. No. 106-531), agencies are permitted to submit combined reports in
implementing statutory requirements for financial and performance management
reporting to improve the efficiency of executive branch performance. These reports are
combined in the PAR, which consists of the Annual Performance Report required by the
Government Performance and Results Act (GPRA). (Pub. L. No. 103-62) with annual
financial statements and other reports, such as agencies’ assurances on internal
control, accountability reports by agency heads and IGs’ assessments of the agencies’
most serious management and performance challenges. PARs provide financial and
performance information that enables the President, the Congress, and the public to
assess the performance of an agency relative to its mission and to demonstrate
accountability.”

Section II.2.1 of OMB Circular No. A-136 states, “The MD&A should provide a clear and
concise description of the reporting entity’s performance measures, financial
statements, systems and controls, compliance with laws and regulations, and actions
taken or planned to address problems.” In addition, section II.2.3 indicates, “The MD&A
provides management with a vehicle for communicating insights about the entity,
increasing the understandability of financial information, and providing information about
the entity, its operations, service levels, successes, challenges, and future.”

Despite the guidance above, OCFO personnel believe that DOL’s strategic goals have
been sufficiently linked to the SNC because, for each year presented, the total net cost
of operations in DOL’s MD&A section is reconciled to the corresponding total presented
on the SNC.

The above finding causes inconsistency within the PAR with regard to the inclusion of
PBGC in the MD&A and exclusion in the financial section. Furthermore, PAR readers
are unable to easily relate audited costs by program presented in the SNC to the
strategic goals discussed in the MD&A. As a result, we consider the FY 2007
recommendations unresolved pending improvements over the reporting of the net
costs of the strategic goals reported in the MD&A and consultation with OMB over the
reporting of PBGC.

Management’s Response

OCFO maintains that the strategic goals are sufficiently linked. Strategic Goals are
cross agency goals and as such cannot be cleanly separated and reported without
taking a matrixed view of the process. Because of this, we believe the ability to
reconcile the SNC with the total net cost of operations within the MD&A is the best

10                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I
approach due to limited resources. Although OCFO believes that we have adequately
disclosed the nature of the presentation, we agree to look into the issue of PBGC’s
inclusion in the MD&A; however, not the financial statement of the PAR.

Auditors’ Conclusion

We reviewed management’s response, and we disagree with the conclusion for
recommendation No. 1; therefore, recommendation No.1 is considered unresolved
pending completion of corrective action plans with specified timeframes for
implementation to address our recommendation.        Furthermore, we consider
recommendation No. 2 resolved and open. FY 2009 audit procedures will determine
whether this recommendation has been adequately addressed and can be considered
closed.

3. Budgetary Reconciliations and Analyses

During FY 2006 and FY 2007, we reported that the OCFO did not complete timely
reconciliations related to the SF-132, Apportionment and Reapportionment Schedules,
and the SF-133, Report on Budget Execution and Budgetary Resources. We also
reported in FY 2007 that the reconciliation of the FY 2006 SBR to the President’s FY
2006 Budget of the Untied States was not reviewed timely. Additionally in FY 2007, we
reported that management did not perform budgetary to proprietary relationship
analyses.
As a result, we made the following recommendations:

We recommend that management ensure that current policies and procedures
over SF-132 and SF-133 reconciliations and budgetary to proprietary relationship
analyses are enhanced to require (a) quarterly reconciliations, including
budgetary to proprietary relationship analyses, be prepared and documented, (b)
the completion of documented supervisory reviews over the reconciliations, and
(c) the completion of these procedures by a certain date (e.g., 15 days after each
quarter-end). We also recommend that the OCFO designate adequate resources
to enforce the current completion and review policies and procedures over the
reconciliation of the SBR to actual information in the President’s Budget of the
United States.

In FY 2008, we noted the following:
   A. Reconciliations of the SF-132 to the SF-133:
   During our audit work over the quarterly reconciliations of the SF-132 to the SF-133,
   we noted several instances where the amounts used to prepare the reconciliation
   did not agree to amounts reported on the source documents (i.e., the SF-132 and
   SF-133). This occurred because either the OCFO did not use the most recent SF-
   132 to prepare the reconciliation or because the reconciliation presented anticipated

Prepared by KPMG LLP                                                                         11
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I
     budget authority reported on SF-132 as actual budget authority. The OCFO does
     not report anticipated budget authority in the Department of Labor Accounting and
     Related Systems (DOLAR$) or on its SF-133. In addition, OCFO did not prepare a
     reconciliation for one Treasury Account Fund Symbol (TAFS). As such, DOL was
     not in full compliance with DLMS 6, Chapter 400, and OMB Circular No. A-11.
     DLMS 6 – Financial Management, Chapter 400, Administrative Control of Funds,
     paragraph 411.C.4, General Fund Control Responsibilities, states, “the CFO is
     responsible for … Performing timely quarterly reconciliations of SF-132,
     Apportionment and Reapportionment Schedule, and SF-133, Report of Budget
     Execution, reports after each quarter, and ensuring full documentation/management
     review and approval of these reconciliations …”

     OMB Circular No. A-11, Preparation, Submission, and Execution of the Budget,
     Appendix F, states that, Line 2B, Recoveries of Prior Year Unpaid Obligations –
     Anticipated, on the SF-132 and SF-133 should include the “amount of the current
     estimate of additional recoveries of prior fiscal year obligations anticipated in
     unexpired accounts for the remainder of the fiscal year.” Appendix F of the Circular
     also states that Line 3A2, Budget Authority, Appropriation – Anticipated, should
     include “the amount of indefinite appropriations anticipated to become available
     under existing law for the remainder of the fiscal year [and the amount of] anticipated
     collection of available receipts.”

     DOL’s SF-132 to SF-133 reconciliation policies and procedures do not specifically
     require the reviewer to verify that the amounts used to prepare the reconciliation
     agree to source documents and represent the most recent information or that a
     reconciliation is completed for all TAFS.


     B. Reconciliation of the SBR to the President’s Budget
     We noted that the presentation of the OCFO’s SBR to President’s Budget
     reconciliation did not include the reconciliation of distributed receipts and net outlays,
     as required by OMB Circular No. A-136 and Statement of Federal Financial
     Accounting Standards (SFFAS) No. 7. Specifically, we noted that the distributed
     receipts ($795 million) reported on the FY 2007 combined SBR was not reported
     and reconciled to the distributed receipts ($800 million) reported as FY 2007 actual
     information in the FY 2009 President’s Budget. In addition, we noted that OCFO
     reconciled gross outlays instead of net outlays. Accordingly, the difference between
     the net outlays ($47.1 billion) reported on the FY 2007 combined SBR and the net
     outlays ($48.3 billion) reported as FY 2007 actual information in the FY 2009
     President’s Budget was not identified or documented. The OCFO addressed our
     comment related to the reconciliation of gross outlays in preparing the FY 2008 DOL
     PAR. Furthermore, no documented evidence exists to support that the reconciliation
     was reviewed by a supervisor and that the review was completed in a timely
     manner.

12                                                                       Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I
   OMB Circular No. A-136, Section II 4.6.8, states, “The amount of offsetting receipts
   distributed to agencies and reported in this statement shall also agree with, and be
   reconciled to the deductions for offsetting receipts as reported in the Budget of the
   United States Government.” In addition, “Outlays consist of disbursements net of
   offsetting collections. The outlays shall agree with, and be reconciled to, the agency
   outlay totals reported in the Budget of the United States Government (i.e., with the
   aggregate of the outlays for accounts within the budget).” This section further
   states, “Line 19D is calculated. It is computed as Line 19A less Line 19B less Line
   19C. This amount shall agree with, and be reconciled to the net outlays (gross
   outlays less offsetting collections and receipts) as reported in the Budget of the
   United States Government.”

   SFFAS No. 7, Accounting for Revenue and Other Financing Sources, paragraph 79
   (g) states, “The following information about the status of budgetary resources should
   be disclosed: explanations of any material differences between the information
   required by paragraph 77 and the amounts described as "actual" in the Budget of
   the United States Government.”

   GAO’s Standards states, “Internal control and all transactions and other significant
   events need to be clearly documented, and the documentation should be readily
   available for examination. The documentation should appear in management
   directives, administrative policies, or operating manuals and may be in paper or
   electronic form. All documentation and records should be properly managed and
   maintained.”

   The OCFO believes that disclosing distributed receipts does not add value to the
   note disclosure for the users of the information and that disclosing gross outlays is
   more valuable to the user than reporting net outlays. In addition, the OCFO
   indicated that the reconciliation was reviewed; however, the reviewer did not sign or
   date the reconciliation as evidence of his/her review.
   C. Budgetary to Proprietary Analyses:
   During our audit work related to controls over the budgetary to proprietary analyses,
   we noted the following:
   •   The budgetary to proprietary analysis for the first quarter was not performed and
       the second and third quarters’ analyses were not provided to us timely.
   •   Several instances existed where the OCFO did not perform certain budgetary to
       proprietary accounting relationships, when applicable (e.g., funded expense to
       delivered orders and expended appropriations to operating expenses). As a
       result, we noted a number of variances that were not identified, researched, and
       documented by the OCFO.



Prepared by KPMG LLP                                                                         13
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I
     •   The OCFO incorrectly included account 4392, Permanent Reduction – New
         Budget Authority, in performing the unexpended appropriations realized
         relationship analysis. As a result, certain differences were not identified by the
         OCFO.

     •   The OCFO budgetary to proprietary analyses only consisted of Budget FY 2008
         activities and did not cover activities funded by older funding sources that are
         available until expended.

     GAO’s Standards states, “Internal control should generally be designed to assure
     that ongoing monitoring occurs in the course of normal operations. It is performed
     continually and is ingrained in the agency’s operations. It includes regular
     management and supervisory activities, comparisons, reconciliations, and other
     actions people take in performing their duties.”

     These exceptions occurred because the OCFO implemented these budgetary to
     proprietary analyses at the end of FY 2007 and is currently making improvements to
     include a comprehensive list of budgetary to proprietary relationships on a quarterly
     basis and ensure that supervisory review is completed in a timely manner. Because
     of the relatively recent implementation, the OCFO has not yet documented the
     relationship analyses procedures and the expected timeframes for completing and
     reviewing these analyses by a certain date (e.g., 15 days after each quarter-end).

     D. Reconciliation of the SF-133 to the SBR:

     We noted that the OCFO did not complete the reconciliation of the SF-133s to the
     SBR for the September 30, 2008 quarter until November 8, 2008, which was after
     the draft financial statements were submitted to OMB. Although the completion date
     complied with OMB Circular No. A-136 requirements, it did not allow for timely
     identification and correction of potential misstatements in the SBR.

     GAO’s Standards states, “Internal control should generally be designed to assure
     that ongoing monitoring occurs in the course of normal operations. It is performed
     continually and is ingrained in the agency’s operations. It includes regular
     management and supervisory activities, comparisons, reconciliations, and other
     actions people take in performing their duties.”

     OMB Circular No. A-136, Section II.4.6.1, states, “Information on the SBR should be
     reconcilable to the budget execution information reported on the SF-133 Report on
     Budget Execution and Budgetary Resources and with information reported in the
     Budget of the United States Government to ensure the integrity of the numbers
     presented. The SBR is an agency-wide report, which aggregates account-level
     information reported in the SF-133… Consistency between budgetary information
     presented in the financial statements and the Budget of the United States
     Government is critical to ensure the integrity of the numbers presented.”

14                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I

   This issue occurred because DOL continued to record adjusting entries in the
   general ledger for FY 2008 until early November.

The lack of timely and complete reconciliations and budgetary to proprietary analyses
increases the risk that material differences in external reports and in the general ledger
may not be detected and corrected in a timely manner during the year or for year-end
reporting.

Although management implemented certain corrective actions in FY 2008, our FY 2006
and FY 2007 recommendations were not fully addressed. As a result, we consider
these recommendations unresolved pending completion of a corrective action plan and
timeframes for implementation. These recommendations are modified below.

Recommendations

We recommend that the Chief Financial Officer:
1. Revise the current procedures to require the recording of anticipated recoveries and
   anticipated appropriations in the general ledger and reporting of them on the SF-
   133s throughout the year as required by OMB Circular No. A-11. In addition,
   provide supervisors with specific guidance on the proper review of the quarterly
   reconciliations between the SF-132 and SF-133, to include reviewing to ensure that
   all TAFS have been reconciled, the most current source documentation was used,
   and all differences have been identified and explained.
2. Reconcile and disclose distributed receipts in the SBR to President’s Budget
   reconciliation and explain material differences identified in compliance with OMB
   requirements. In addition, the OCFO supervisor or separate personnel other than
   the preparer of the reconciliation should sign and document his or her review in
   order to provide evidence that the review was completed in a timely manner.

3. Complete implementation of comprehensive quarterly budgetary to proprietary
   analyses, including documented resolution of identified differences. These analyses
   should be documented, reviewed, and approved by an appropriate supervisor in a
   timely manner. In addition, documentation should be maintained to support these
   activities.
4. Formally document the budgetary to proprietary analyses procedures and the
   expected timeframe for completion and review each quarter.
5. Expedite the process for recording all adjustment entries at the end of the fiscal year
   and complete the quarterly reconciliations of the SF-133 to the SBR, including the
   completion of documented supervisory reviews over these reconciliations, by a
   certain date (e.g., 21 days after each quarter-end) that facilitates timely identification
   and correction of potential SBR misstatements. If necessary at year-end because of
   the posting of year-end adjusting entries, a preliminary reconciliation should be

Prepared by KPMG LLP                                                                         15
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I
     completed and reviewed in conjunction with the submission of the initial draft
     consolidated financial statements to the auditors, with a final reconciliation occurring
     after all adjustments have been posted.

Management’s Response

A. Reconciliations of the SF-132 to SF-133

     During 2007 and 2008, the Office of the Chief Financial Officer (OCFO), continued to
     improve departmental budgetary accounting policies to communicate and coordinate
     the oversight of participating budgets and financial staff to reconcile tie points of SF–
     132s to SF-133. Management designed and implemented operating controls for end-
     of-quarters and end-of-year financial reporting that would detect improper balances
     in the relationships between budgetary and proprietary accounts.

     OCFO is confident that the “pre-submission validation check” report performed at the
     system level reveals any budgetary deficiencies before the trial balance data is
     submitted through the edit checks of Department of Treasury’s FACTS II.

     Additionally, OCFO reconciles the SF-132 and SF-133 on a quarterly basis. The
     instances noted in the Notification of Finding and Recommendation (NFR), though
     reported on different lines, do not impact financial reporting in any way. Apart from
     quarterly reconciliations of the SF-132 to SF-133, OCFO performs other
     reconciliations that provide additional controls, such as the quarterly reconciliations
     of budgetary accounts to proprietary accounts and their analytical review. There are
     22 reconciliations of budgetary accounts to proprietary accounts. The purpose of
     the reconciliations is to detect any variance between the budgetary accounts and the
     proprietary accounts. The variances are reviewed to ensure that a misstatement
     does not go unnoticed. Also, OCFO, performs a detailed Trend Analysis of the FY
     2008 financial statement balances compared with the FY 2007 reported balances to
     detect any variance that may indicate an error in recording. All significant variances
     are analyzed to ensure that a misstatements are corrected immediately.

B. Reconciliations of the SBR to the President’s Budget

     OCFO agreed with the auditor’s findings and reported net outlays in the FY 2008
     PAR.

C. Budgetary to Propriety Analysis

     Budgetary to proprietary relationship analysis as of 3/31/08 and 6/30/08 were not
     provided by OCFO until 8/20/08 and 8/8/08 respectively.

     Response: This statement accurately reflects the dates that our analytical
     procedures were provided to the auditors. However, we note that these procedures

16                                                                       Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I
   are only recommended to assist management in their review of accounting data.
   They are not required, nor are any due dates established in relative Federal
   guidance.

   No documented evidence exists to support the budgetary to proprietary relationship
   analyses as of 6/30/08 were reviewed and approved by a supervisor or someone
   other than the preparer in a timely manner.

   Response: We concur with this statement, and will institute procedures for
   independent review and approval of future analytical procedures.

   Certain budgetary to proprietary accounting relationships, when applicable, were not
   performed (e.g., funded expense to delivered orders and expended appropriations to
   operating expenses).

   Response: The auditor is referring to the fact that certain procedures were not
   performed for the June quarter.              However, as stated above, the
   budgetary/proprietary analytical procedures are recommended rather than required,
   and the fact that certain budgetary/proprietary procedures were only performed at
   year-end should not be considered an audit finding. The OCFO performs a variety
   of analytical tests throughout the fiscal year, including the budgetary/proprietary
   procedures, SF-132 and SF-133 reconciliations, and quarterly trend analyses. At
   year-end, the budgetary/proprietary procedures included 19 standard procedures
   recommended in the Original Draft Trial Balance Tie-point Project Workbook
   available on the USSGL website, plus three additional procedures. We believe that
   the scope of procedures performed throughout the fiscal year provided sufficient
   controls over budgetary and proprietary accounts, and the fact that certain
   procedures were not performed for each quarter does not constitute an audit finding.

   We tested these relationships and noted a number of variances that were not
   identified, researched, and documented by management. For example, we noted
   differences of $1.8 billion, $148 million, and $1.1 billion in testing the relationship of
   Expended Appropriations (Current Outlays) to Operating Expenses for IACs 179,
   163, and 322, respectively.

   Response: We concur with the first and third bullet items mentioned above. OCFO
   has implemented policies and procedures to ensure that budgetary and proprietary
   analysis is completed.

   We, on the other hand, do not concur with the remaining bullet items. OCFO did not
   perform certain budgetary and proprietary analysis only because they do not apply
   to accounts transferred from a Trust Fund; because these appropriations have Trust
   Fund funding, we have to exclude them from the analysis. Furthermore, the findings
   cited in the last bullet item were only accurate for the first quarter of FY-2008.


Prepared by KPMG LLP                                                                         17
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I
D. Reconciliation of the SF-133 to the SBR

     OCFO management does not concur with the proposed recommendation. There is
     no requirement in OMB Circular A-136 to reconcile the SBR to the SF-133 reports
     within 21 days after the end of each quarter. The criteria quoted in the NFR do not
     apply to draft financial statements. As noted by the auditors in the condition
     statement, the SBR was reconciled to the SF-133 reports on November 8, 2008
     which was nine days before the due date of the final consolidated financial
     statements.

Auditors’ Conclusion

Recommendations for sections B and C are considered resolved and open. FY 2009
audit procedures will determine whether these recommendations have been adequately
addressed and can be considered closed. However, we disagree with the OCFO
conclusion for sections A and D. Regarding section A, the controls identified in
management’s response did not detect the differences identified during our testwork.
For section D, the SF-133 to SBR reconciliation is a financial reporting control that
should be implemented to detect and correct potential material misstatements in the
SBR in a timely manner during the year-end preparation of the consolidated financial
statements. Therefore, we consider our recommendations for sections A and D
unresolved pending completion of corrective action plans with specified timeframes for
implementation to address our recommendations.

4. Budget Apportionment Process

During our testing over management review of the SF-132s, we noted the following:

        The Departmental Budget Center (DBC) reported appropriated receipts in the
         amount of $13.8 million on Line 3D1A, Offsetting Collections – Earned, Collected
         instead of either Line 3A1, Budget Authority, Appropriation – Actual or Line 3A2,
         Budget Authority, Appropriation –Anticipated of the SF 132 for TAFS 16X5393.
         The DBC incorrectly reported FY 2008 appropriations received (current year
         appropriations) as Unobligated Balance: Brought Forward, October 1(Line 1A).
         This impacted TAFS 1608/090164 in the amount of $7.5 million.
        Regarding the $7.5 million noted above, the OCFO incorrectly recorded this
         amount in the general ledger in February 2008 as Allotments Realized instead of
         Unapportioned Authority. The accounting was not appropriate because Public
         Law 110-161, Consolidated Appropriations Act, 2008, made this amount
         available after July 1, 2008.

An adequate review was not performed of the SF-132s prior to submission to OMB or of
the FY 2008 Consolidated Appropriations Act to determine the proper period of
availability to incur obligations. This could result in Anti-Deficiency Act violations and

18                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I
misstatements of the year-end consolidated financial statements. In addition, when
management identified the SF-132 errors, DBC had to contact OMB to explain the
errors.
OMB Circular No. A-11, Appendix F states that, “Line 1A of the SF-132 should include
the amount of unobligated balance brought forward from prior fiscal years as of October
1 of the current fiscal year that is available for obligation.” The Appendix also states
that, “Line 3A1 should include the amount of appropriated receipts collected in the
current fiscal year [and the amount of] anticipated collection of available receipts.”

Pursuant to Public Law 110-161, Consolidated Appropriations Act, 2008, Division G,
Title I Department of Labor, Veterans Employment and Training, states, “Not to exceed
$200,631,000 may be derived from the Employment Security Administration Account in
the Unemployment Trust Fund to carry out the provisions of sections 4100–4113, 4211–
4215, and 4321–4327 of title 38, United States Code, and Public Law 103–353, and
which shall be available for obligation by the States through December 31, 2008, of
which $1,984,000 is for the National Veterans’ Employment and Training Services
Institute. To carry out the Homeless Veterans Reintegration Programs under section
5(a)(1) of the Homeless Veterans Comprehensive Assistance Act of 2001 and the
Veterans Workforce Investment Programs under section 168 of the Workforce
Investment Act, $31,522,000, of which $7,482,000 shall be available for obligation for
the period July 1, 2008, through June 30, 2009.”

Recommendations

We recommend that:

1. The Assistant Secretary for Administration and Management provide DBC staff and
   supervisors with specific guidance on proper preparation and review of the SF-132s
   prior to submitting the forms to OMB.

2. The Chief Financial Officer implement review procedures to ensure that
   appropriations are made available for obligation in the general ledger system in
   accordance with the appropriations law.

OASAM Management’s Response

OASAM agrees with the recommendation that DBC provide refresher training to its
supervisors regarding review of the SF-132s. In addition, OASAM/DBC will modify its
guidance to Agencies to include the period of funding availability on all allotment
requests so more information is available during review to determine if the allotment
should make funds available immediately, or at a later date. This guidance will be
issued formally when OASAM/DBC issues its annual apportionment guidance once a
full-year FY 2009 appropriation is enacted for the Department’s programs. Also, this
instruction will be included in all future DBC-issued apportionment guidance covering
full-year appropriations.
Prepared by KPMG LLP                                                                         19
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I

OCFO Management’s Response

OCFO agrees with the recommendations. No later than March 31, 2009, we will
implement review procedures to ensure that appropriations are made available for
obligation in the general ledger system, in accordance with the appropriations law.

Auditors’ Conclusion

These recommendations are considered resolved and open.       FY 2009 audit
procedures will determine whether these recommendations have been adequately
addressed and can be considered closed.

5. Recording Upward Adjustments Transactions

During FY 2007, we noted that DOL used improper U.S. Standard General Ledger
(USSGL) accounts to record adjustments of $102 million in obligations. As a result, we
made the following recommendation:

We recommend that the OCFO implement policies and procedures to ensure
adequate controls exist for the proper recording of adjustments to delivered and
undelivered orders. Specifically, the controls identified should ensure (a) the
retention of adequate supporting documentation, (b) proper timing of recordation,
and (c) proper coding of the adjustments to the correct standard general ledger
accounts.     The control environment should also include provisions for
appropriate management review.

During our FY 2008 testing, we noted that DOL incorrectly recorded new current year
obligations in the amount of $2.8 million as upward adjustments.

The above finding is due to the configuration of DOLAR$ combined with user errors
which are causing improper account coding of certain adjustments to delivered and
undelivered orders. DOL relies on a manual review of obligations above $50,000;
however, the review did not detect and correct the items we identified as of June 30,
2008, since they were individually below the threshold. As a result, DOL is not in full
compliance with the USSGL.

OMB Circular No. A-11, Section 20, Terms and Concepts, states, “multi-year budget
authority is available for obligation for the specified period of time in excess of one fiscal
year.” During the unexpired phase of a multi-year appropriation, the budget authority is
available for incurring “new” obligations. Agencies may use expired authority to make
adjustments to obligations or disbursements only during a period of five years after the
last unexpired year.



20                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I
Although management implemented additional controls in FY 2008, our FY 2007
recommendation was not fully addressed. Therefore, we consider the FY 2007
recommendation unresolved pending completion of a corrective action plan and
timeframes for implementation. This recommendation is modified below.

Recommendations

We recommend that the Chief Financial Officer:

1. Ensure that the new general ledger system, to be implemented in October 2009, is
   configured to properly record adjustments to current year delivered and undelivered
   orders.

2. Ensure adequate controls exist for the proper recording of all adjustments to
   delivered and undelivered orders and not only those above the $50,000 threshold.
   Specifically, we continue to recommend that the controls identified should provide for
   the (a) retention of adequate supporting documentation, (b) proper timing of
   recording the entry, and (c) proper coding of all adjustments to the correct standard
   general ledger accounts. The control environment should also include provisions for
   appropriate management review.

Management’s Response

OCFO does not concur with this NFR, either the facts as stated by the auditors or the
resulting conclusions. It is true that our existing accounting system initially records
certain obligations as upward adjustments rather than standard obligation entries. The
long term solution for this situation will be addressed in the design of the new general
ledger system, currently scheduled for implementation in FY 2010. In the mean time,
OCFO has implemented compensating controls to ensure substantial compliance with
SGL accounting, which consist of an automated program and a detailed, manual review
process. The automated program detects and corrects certain obligation entries
regardless of the dollar value. Therefore, it is incorrect for the auditors to say that no
transactions less than $50,000 are subjected to potential adjustment. A second,
manual review process analyzes and, if necessary, corrects, transactions equal to or
greater than $50,000.

The $50,000 threshold was established due to the fact that at this level, the material
portion of the account balances would be evaluated and corrected if necessary. For
example, the adjusted year end balances in accounts 4881 and 4891 total about $99
million. Of this amount, there are 225 transactions equal to or greater than $50,000,
totaling about $90 million, or 90% of the account balance. The remaining $9 million was
comprised of about 14,800 transactions. We do not believe it is necessary, nor is it an
efficient use of resources, to individually analyze the remaining 14,800 transactions with
a value of only $9 million. This amount is simply too immaterial to subject to this


Prepared by KPMG LLP                                                                         21
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I
detailed review process, and the cost of analyzing 100% of the transactions is not
justified based on the corresponding dollar value.

Federal internal control standards recognize that the level of controls established by
management should be balanced against the risk of misstatement or misappropriation.
OMB Circular A-123 states the following:

Federal managers must carefully consider the appropriate balance between controls
and risk in their programs and operations. Too many controls can result in inefficient
and ineffective government; agency managers must ensure an appropriate balance
between the strength of controls and the relative risk associated with particular
programs and operations. The benefits of controls should outweigh the cost. Agencies
should consider both qualitative and quantitative factors when analyzing costs against
benefits.

The auditors conclude and recommend that we analyze “all” transactions posted to
these SGL accounts. We do not agree, and believe that our procedures comply with
the internal control standards and provide a reasonable and efficient interim solution
until such time as the general ledger is replaced in its entirety.

We also question the implication of the NFR statement that we are not in “full”
compliance with the USSGL. While this may be true for a very insignificant amount of
obligation transactions, Federal financial management standards require agencies to
have financial management system that substantially comply with the USSGL. We
conclude that the procedures in place during FY 2008 ensured substantial compliance
over the use of upward adjustment accounts and met the applicable Federal standards.

Finally, we note that the use of the upward adjustment accounts rather than the
standard obligation accounts does not have any impact to any line item of the basic
financial statements. In other words, the risk of misstatement is zero.

Auditors’ Conclusion

Regarding recommendation No. 1, the OCFO indicated that the underlying cause of the
situation will be addressed in the design of the new general ledger system, currently
scheduled for implementation in FY 2010. Therefore, we consider recommendation No.
1 resolved and open. Because corrective actions will not be effective until FY 2010,
our FY 2009 audit procedures will assess progress made in addressing this
recommendation. Regarding recommendation No. 2, because management made an
assessment and determined that the balances under the $50,000 threshold in accounts
4881 and 4891 are immaterial in the aggregate to the consolidated financial statements,
we consider recommendation No. 2 resolved and open. FY 2009 audit procedures will
determine whether this recommendation has been adequately addressed and can be
considered closed



22                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I
6. Recording Budget Authority

During our FY 2008 substantive audit procedures over appropriations received and
journal vouchers, we noted several instances where DOL did not record the budgetary
and proprietary transactions simultaneously for economic events related to the approval
of budgetary resources under a continuing resolution by OMB.

DOL’s policy is to record proprietary entries related to appropriations received only
when a Treasury Warrant is received. Budget and proprietary entries to post Treasury
Warrants are completed via two separate transactions and by two different agencies,
which are not coordinated appropriately. The OCFO posts the proprietary entry and
DBC posts the budgetary entry. This policy could result in (1) potential abnormal
balances in Fund Balance with Treasury upon disbursements for current year annual
and multi-year funds and (2) imbalances in budgetary/proprietary relationships.

The USSGL, Section III Account Transactions, A196 states, “to record the annualized
level of an appropriation provided under a continuing resolution.”

   Budgetary Entry
   Debit 4119 Other Appropriations Realized
          Credit 4450 Unapportioned Authority

   Proprietary Entry
   None

USSGL, Section III Account Transactions, A197 states, “To record Fund Balance with
Treasury under a continuing resolution as determined by the Office of Management and
Budget’s automatic apportionment bulletin.”

   Budgetary Entry
   None

   Proprietary Entry
   Debit 1090 Fund Balance with Treasury Under a Continuing Resolution
          Credit 3101 Unexpended Appropriations – Appropriations Received

USSGL, Section III Account Transactions, A198 states, “To record Fund Balance with
Treasury and adjust Fund Balance with Treasury Under a Continuing Resolution to zero
upon the enactment of an appropriation and receipt of a Treasury Appropriation
Warrant.”

   Budget Entry
   None



Prepared by KPMG LLP                                                                         23
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I
     Proprietary Entry
     Debit 1010 Fund Balance with Treasury
            Credit 1090 Fund Balance with Treasury Under a Continuing Resolution
            Credit 3101 Unexpended Appropriation – Appropriations Received

USSGL, Section III Account Transactions, A104 states, “To record the enactment of
appropriations….This transaction is not recorded by special or non-revolving trust funds
unless amounts are appropriated from the General Fund of the Treasury via Treasury
Appropriation Warrant.”

     Budgetary Entry
     Debit 4119 Other Appropriations Realized
            Credit 4450 Unapportioned Authority

     Proprietary Entry
     Debit 1010 Fund Balance with Treasury
            Credit 3101 Unexpended Appropriations – Appropriations Received

Recommendations

We recommend that the Chief Financial Officer:

1. Amend current policies and procedures to properly and timely record budgetary and
   proprietary entries for the receipt of budget authority.

2. Combine the transaction codes used to record budget authority so that such
   proprietary and budgetary entries are posted simultaneously.

Management’s Response

OCFO in consultation with OASAM plans to implement corrective actions effective in FY
2010. The Department plans to implement a new financial system in October 2009.
OCFO in consultation with OASAM will amend the policies and procedures to
implement the new system and to address the recommendations of this NFR. OCFO in
consultation with OASAM will develop new transaction codes to combine the budgetary
and proprietary and entries.

Auditors’ Conclusion

These recommendations are considered resolved and open. Because corrective
actions will not be effective until FY 2010, our FY 2009 audit procedures will assess
progress made in addressing these recommendations.




24                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I
7. Grant Monitoring Controls

DOL is charged with preparing the American workforce for new and better jobs and
ensuring the adequacy of America’s workplaces. As part of accomplishing this mission,
the Employment and Training Administration (ETA), Veterans Employment & Training
Services (VETS), and Bureau of International Labor Affairs (ILAB) issue grants to
various organizations.

The ETA, VETS, and ILAB grantees are required to submit quarterly Financial Status
Reports, which document the costs incurred by the grantee. The assigned Federal
Project Officer/Grant Officer (FPO) initially performs a cursory review of the quarterly
Financial Status Reports and then performs a more comprehensive review and analysis
of the financial reports within 30 days of receipt of the reports. The FPO is responsible
for ensuring that the grantee is submitting its required reports in a timely manner.

ETA grantees are also required to submit progress reports on a quarterly basis. The
assigned FPO performs a comprehensive review and analysis of the performance
reports within 30 days of receipt of the reports but no later than 75 calendar days after
the end of the calendar quarter.

Additionally, VETS, and ILAB grantees are required to submit quarterly Federal Cash
Transaction Reports through the Department of Health and Human Services’ Payment
Management System (HHS/PMS). These reports record the disbursements made by
DOL to grantees.

During FY 2007, we noted various exceptions related to FPO’s review and reconciliation
of the grantees’ progress reports. As a result, we made the following recommendations:

We recommend that the Assistant Secretary for Employment and Training:

1. Reinforce procedures which require a detailed review of the “Delinquent Cost
   Report” every quarter for the entire year. Additionally, FPOs or the individuals
   contacting the delinquent grantee should be required to maintain accurate
   records of the communication and results. Supervisors should review a
   sample of delinquent cost reports to confirm that the FPOs are resolving these
   situations timely; this review should be documented.

2. Require supervisors to review a sample of grantees’ progress report desk
   reviews to confirm that the reports are being completed timely; this review
   should be documented.

We recommend that the Assistant Secretary for the Veterans' Employment and
Training Service and the Deputy Undersecretary for International Affairs
implement adequate procedures to ensure that submitted cost reports are
recorded correctly and reconciled to DOLAR$ in a timely manner.

Prepared by KPMG LLP                                                                         25
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I

During our testing over the grants process in FY 2008, we noted the following
weaknesses in internal control:
    A desk review was not completed for 1 of the 45 ETA grantee progress reports
     tested for the periods ended December 31, 2007 and March 31, 2008.
    A desk review was not completed timely (i.e., 75 calendar days after the end of the
     calendar quarter) for 4 of 45 ETA grantee progress reports submitted for the periods
     ended December 31, 2007 and March 31, 2008.
    The submission date for a desk review was not documented for 1 of the 45 ETA
     grantee progress reports tested, which prevented the testing of the timeliness of this
     review.
    Adequate documentation supporting that the FPO had followed up timely with the
     grantees on cost report delinquencies did not exist for 3 of the 30 delinquent ETA
     grantees selected for testing.
    For 5 of the 16 sample items related to VETS (2) and ILAB (3), DOLAR$ did not
     agree to the quarterly Financial Status Reports.

The above exceptions occurred because ETA did not adequately verify that all required
progress report desk reviews were completed in a timely manner, as there was no
supervisory review to ensure that the FPOs were performing all of their assigned
grantees’ progress report desk reviews timely. In addition, ETA does not have
procedures in place to track late FPO desk reviews, and the Grants eManagement
System (GEMS) does not require FPOs to both submit and save their reviews to ensure
the submission date is recorded. Also, ETA did not consistently maintain adequate
support for communications with grantees to resolve issues such as delinquent
reporting.   Concurrently, VETS and ILAB did not have adequate and/or fully
implemented procedures in place to ensure that data submitted on the quarterly
Financial Status Reports was recorded correctly and reconciled to the quarterly Federal
Cash Transaction Reports and DOLAR$.

Without adequate detective controls over the grant expenditure process, grantees may
be intentionally or unintentionally misreporting grant expenditures or misusing grant
funding, causing DOL’s financial statements to be misstated. Incorrect reporting by
grantees could result in DOL not properly recording the cash position of the grantee,
any amounts owed by the grantee, or any amounts owed by DOL to the grantee. As a
result, grant-related expenses, advances, payables, and undelivered orders could be
misstated.

Per DOL’s General Guidance on GEMS Usage for FY05 memorandum, DOL’s policy
regarding desk reviews states that, “desk reviews should be completed 30 days after
receipt of the quarterly reports from grantees, but no later than 75 calendar days after
the end of the calendar quarter.”


26                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I
In addition, GAO’s Standards states “Control activities occur at all levels and functions
of the entity. They include a wide range of diverse activities such as approvals,
authorizations, verifications, reconciliations, performance reviews, maintenance of
security, and the creation and maintenance of related records, which provide evidence
of execution of these activities as well as appropriate documentation. Control activities
may be applied in a computerized information system environment or through manual
processes.”

As a result, we consider the FY 2007 recommendations to be unresolved pending
completion of a corrective action plan and timeframes for implementation. Additionally,
we make the following new recommendations:

Recommendations

We recommend that the Assistant Secretary for Employment and Training ensure the
following improvements are made to ETA’s internal control structure:

1. Update ETA policy to improve documentation requirements for desk reviews and
   circulate the policy to ensure all FPOs are aware of the timeliness requirement of the
   desk reviews.

2. For the grants monitored in GEMS, develop a report in GEMS to note when desk
   reviews have not been performed by the FPO. In addition, the report should
   highlight/track desk reviews that are close to the completion deadline of 75 calendar
   days after the end of the calendar quarter. Supervisors should review these reports
   periodically and follow-up with the FPOs as appropriate.

3. For the grants monitored in GEMS, develop a system alert to prompt FPOs to save
   and submit their reports before exiting the system. This would provide each desk
   review with a submission date, allowing for verification of timeliness of the review.

VETS Management’s Response

The Veterans’ Employment and Training Service (VETS) will redouble its efforts to
reconcile grantee financial reports to the general ledger. VETS grants management
procedures are in place requiring quarterly financial reporting and reconciliation of
grants.

The major challenge to quarterly reconciliation has been delinquency of reporting for
grantees. VETS will take appropriate actions on delinquent reporting, holding agency
field leadership accountable for timely inputs of SF 269 quarterly financial reports.

Once received, the Agency Budget Office (ABO) will ensure appropriate action to
reconcile these reports with the Department’s core financial system and general ledger.
Our intent is to address and close this finding during FY 2009.

Prepared by KPMG LLP                                                                         27
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I

ILAB Management’s Response

ILAB concurs with the management advisory comments stating that, as of the time of
the audit review, ILAB had not fully implemented its procedures for effective grant
monitoring controls. Fiscal Year 2008 Notification of Findings and Recommendations
(NFR) 08-39, titled “Reconciliation of Grantee Financial Reports to the General Ledger,”
also recommended that ILAB “…implement its existing reconciliation procedures for all
its grants.”

In response to the aforementioned recommendation, ILAB developed written
procedures and policies for Grant Officer Technical Representatives (GOTRs) to review
and reconcile the grantee-submitted SF-269s to the PSC-272s submitted through the
HHS/PMS system and DOLAR$. ILAB documents this reconciliation and review
process using a Project Manager Financial Review sheet, developed specifically to
provide evidence of execution of these activities, dated and initialed by the Project
Manager/GOTR and filed with related technical and financial reports in a central
location. As of the beginning of the September 2008 grant cycle, ILAB has completely
implemented its reconciliation procedures for all grants as part of its oversight of federal
funds.

In addition, in carrying out its responsibilities for proper oversight of Congressionally-
appropriated funds for technical cooperation programming, ILAB reviews information
submitted in the SF-269 and cross checks that information against information
submitted by grantees in their Technical Progress Reports to ensure that grantees’ use
of funds corresponds to actual project activity levels. This review also involves ILAB
checking SF-269s against the approved budget for the project to ensure that grantees
do not exceed funding amounts obligated by ILAB. ILAB written procedures also call for
follow-up communications with grantees, if a grantee is late in submitting its SF-269s
and/or when ILAB has questions regarding information submitted by a grantee in its SF-
269. These communications are documented in ILAB’s project files. ILAB presented
evidences of this process for following-up with grantees regarding SF-269 submissions
during the FY 2008 audits.

ILAB remains committed to proper oversight of funds and in ensuring their existing
procedures are followed for maintaining proper internal controls.

ETA Management’s Response

Management agrees with this finding and is implementing corrective actions to improve
controls in the area. Notification from the Deputy Assistant Secretary was sent to ETA
Administrators requiring all National Office Federal Project Officers (FPOs) to document
grants managed out of the National Office through the Grants Electronic Management
System (GEMS). Training on GEMS to new users began in the 1st quarter of fiscal year
2009. ETA has revised appraisal standards in FY09 for supervisors of FPOs (both

28                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I
National Office and Regional staff) to require the review of GEMS management reports
of FPO desk reviews to confirm that the reports are being completed timely, and to note
any delinquent reporting. Supervisors will go over the results of those reviews with
employees quarterly as well. Finally, ETA management will determine the feasibility of
upgrading GEMS 4.0 to include additional management report(s) such as the desk
reference exception report that would highlight/track the completion of desk reviews.
The completion of this is based on available funding.

Auditors’ Conclusion

These recommendations are considered resolved and open.       FY 2009 audit
procedures will determine whether these recommendations have been adequately
addressed and can be considered closed.

8. Grant Closeouts

During the FY 2006 and FY 2007 audits, we identified various exceptions related to the
closeout of grants, including timeliness and inconsistent review of closeout
documentation. As such, we made the following recommendations:

We recommend that the Assistant Secretary for Employment and Training
develop and implement review procedures within the Closeout Unit that the
supervisor will perform over the closeout inventory tracking system. These
procedures should include:

1. Following up on any grants that have not been closed within the required
   timeframes;
2. Contacting the Closeout Specialists who are assigned to grantees that have
   not submitted the closeout packages and are nearing the end of the required
   time frame (90 days) to confirm that communication is occurring with the
   grantees;
3. Reviewing the status of grants where the closeout package has been
   submitted by the grantee;
4. Ensuring that the grant specialists are reviewing and reconciling the closeout
   documents within the required 30 day timeframe;
5. Ensuring that grants that are with the Division of Financial and System
   Services (DFSS) are properly and timely being de-obligated in DOLAR$; and
6. Reviewing, on a sample basis, closeout documentation, specifically the Grant
   Closeout Preliminary Record, Accounting Checklist, and de-obligation entries,
   to ensure that they are all properly approved and agree to all supporting
   documentation.

During our testing over grant closeout procedures in FY 2008, we noted the following
weaknesses:


Prepared by KPMG LLP                                                                         29
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I
    For 1 of the 45 closed grants selected for testing, the file folder could not be located;
     therefore, this sample item could not be tested;
    For 3 of the 44 closed grants tested, the Closeout Specialist did not consistently
     review and analyze the closeout documentation and complete the required financial
     reconciliation within 45 days from the receipt of the final grant forms. No evidence in
     the grant file indicated what delayed the reconciliation process. Additionally, 1 of the
     grants was not assigned to a Closeout Specialist in a timely manner, causing a delay
     in the closeout of this grant.
    For 2 of the 264 ETA grant-related undelivered orders tested, closeout was not
     conducted for the grants although final cost reports had been submitted prior to the
     end of the grant’s period of performance.
    For 8 ILAB grants identified during our HHS/PMS to DOLAR$ suspense testing,
     funds were drawn down through HHS/PMS but were not expended by the grantee
     and reported by the end of the period of performance. Therefore, money was due to
     the U.S. Department of the Treasury (Treasury) for these unused funds.
    For 3 of 3 Office of Disability Employment Policy (ODEP) grant-related undelivered
     orders tested, closeout was not conducted timely (i.e., within 12 months) although
     final SF 269s were received.

The above instances were a result of misplaced files during transition to a new barcode
filing system and inadequate follow-up procedures regarding the closing of grants. In
addition, the review of the Closeout Inventory Tracking System (CITS), closeout
reconciliations, and all completed grant closeouts was insufficient to ensure that the
Closeout Specialists were adequately documenting their communications with the
grantees. Furthermore, the Office of the Assistant Secretary for Administration and
Management (OASAM), which administers grants for ODEP and ILAB, has not
appointed a designee to conduct closeout of grants. Currently, OASAM closes its
grants when funds have expired, in lieu of when activities have been completed.
Ultimately, the above instances could result in grants that are not closed in a timely
manner and an overstatement of undelivered orders because of the delayed de-
obligation.

Per ETA’s Closeout Manual, once the grantee has submitted the closeout forms, the
Closeout Specialist receives an email notification that the forms are ready to be
reviewed in the Grants Closeout System (GCS). Internal procedures require that the
closeout specialist review, analyze, and reconcile the closeout documents within 45
days from receipt of the grant forms. The specialist works with the FPO to resolve any
financial discrepancies by comparing the final cost report submitted by the grantee to
the costs reported in DOLAR$ to ensure that the information submitted meets the grant
requirements and agrees with DOLAR$ and the final SF-269 (or equivalent). Once all
of the documents have been accepted and the financial reconciliation completed, the
Accounting Checklist is completed by the Closeout Specialist.           The checklist
summarizes the pertinent information for the grant, the net amount paid by DOL, the

30                                                                       Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I
costs incurred, and the amount to be de-obligated. The Grant Officer clicks “submit” on
the “Mod Approval Process History” screen, which acts as an electronic signature. The
package is then sent electronically to DFSS for reconciliation between HHS/PMS and
DOLAR$. The DFSS accountant receives an electronic notice through E-Grants that a
grant is on the work list that needs to be closed. Once the package is received by
DFSS, the HHS/PMS reconciliation to DOLAR$ is completed within 7 days. A de-
obligation is processed, if needed. The information is then sent back to the Closeout
Unit where the Grants Officer performs a final review of the documentation and sends a
Notification of Closure to the grantee as evidence of approval.

In addition, GAO’s Standards states, “Control activities occur at all levels and functions
of the entity. They include a wide range of diverse activities such as approvals,
authorizations, verifications, reconciliations, performance reviews, maintenance of
security, and the creation and maintenance of related records, which provide evidence
of execution of these activities as well as appropriate documentation. Control activities
may be applied in a computerized information system environment or through manual
processes.”

Although management implemented certain corrective actions in FY 2008, our FY 2006
and FY 2007 recommendations were not fully addressed. As a result, we consider
these recommendations unresolved pending completion of a corrective action plan and
timeframes for implementation. These recommendations are modified below.

Recommendations

We recommend that the Assistant Secretary for Employment and Training improve the
procedures for supervisory review of the grant closeout process. These procedures
should include:

1. Reviewing the CITS with the Closeout Specialists periodically to determine the
   status of grant closeouts in conjunction with and/or in addition to regular monthly
   meetings;
2. Following up with staff within 3-5 workdays to make sure that immediate action
   required as a result of the monthly meeting is completed;
3. Following up on any grants that have not been closed within the established time
   frames;
4. Ensuring that the Closeout Specialists are reviewing and reconciling the closeout
   documents within the established 45-day time frame;
5. Ensuring that the Closeout Specialists are documenting any delays in closeout and
   including such documentation in the grant file; and
6. Reviewing, on a sample basis, closeout documentation, specifically the Grant
   Closeout Preliminary Record/MOD Process History, Accounting Checklist, and de-

Prepared by KPMG LLP                                                                         31
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I
     obligation entries, to verify that they are all properly completed and approved and
     agree to all supporting documentation.

In addition, we recommend that the Assistant Secretary for Administration and
Management ensure that the OASAM grant officers for ODEP and ILAB:

1. Implement the DLMS procedures requiring the designation of a Closeout Specialist
   to handle the accounting aspects of closing out grants, such as de-obligating funds
   and following up with grantees to ensure unused funds drawn down are returned to
   the Treasury.

2. Develop and implement specific procedures to complete the grant closeout process
   within 12 months of each grant’s completion in accordance with DLMS. These
   procedures should include (a) performing final reconciliations between HHS/PMS,
   DOLAR$, and the final cost reports to determine whether all funds drawn down were
   expended, (b) de-obligating funds not reported as expended, and (c) following up
   with grantees to ensure unused funds drawn down are returned to the Treasury.

ETA Management’s Response

Management does not concur with the Notification of Findings and Recommendations
(NFR) for FY 2008. We object to the auditors’ use of the internal processes and due
dates outlined in our Closeout Handbook to prepare a consolidated audit report. The
timeframes referenced throughout the NFR are those stated in the Closeout Handbook
which is intended for guidance purposes only. They are internal benchmarks and goals
that should not be considered requirements.

We are governed by the requirements outlined in the DLMS-2, Chapter 800, Section
870 and ETO No. 3-05 which provide closeout procedures for ETA’s expired grants,
agreements and national office contracts. The DLMS states that grants are to be closed
12 months from the expiration date. All of ETA’s closeouts are processed in
accordance with the DLMS regulations. A copy of these procedures was previously
provided to the auditors.

OASAM Management’s Response

DLMS procedures requiring the designation of a closeout specialist have been
implemented. However, the Office of Procurement Services has contracted grant
specialists who perform grants closeout offsite. Due to the large volume of grants
requiring closeout, contractor personnel have been directed to close out the “oldest”
completed grants first. To date approximately 106 grants have been closed with the
return of more than $2 million in cash outlays.




32                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I
Auditors’ Conclusion

We disagree with ETA’s management’s response. The Closeout Handbook indicates
that ETA employees must comply with the outlined requirements. Therefore, these
recommendations are considered unresolved pending completion of corrective action
plans with specified timeframes for implementation to address our recommendations.
Furthermore, we consider the recommendations to OASAM resolved and open. FY
2009 audit procedures will determine whether these recommendations have been
adequately addressed and can be considered closed.

9. Grant Accrual Review Controls

The ETA grantees are required to submit quarterly Financial Status Reports (ETA
9130), which document the costs incurred by the grantee. These quarterly reports are
due to ETA within 45 days of quarter-end. This gap in reporting time causes a delay in
being able to report grantee costs in DOL’s general ledger. To account for these
expenses that have not yet been reported at quarter-end, ETA calculates an accrual
and records this accrual on the last day of the quarter. The accrual is then reversed on
the first day of the following quarter, and actual costs are then recorded once reported
by the grantees. The accrual is calculated based on certain cost-to-payment ratios,
which are calculated during an annual accuracy analysis.

This accuracy analysis is usually performed within the third quarter of every year to
compare the actual costs reported by the grantees to the prior year-end accrual. The
cost factors to be used in calculating the current year-end grant accrual (as well as the
first three quarters of the following year) are determined by this annual analysis, which
is calculated by the Financial Systems Specialist under the guidance and review of ETA
management. According to the FY 2007 accuracy analysis “Executive Summary”
prepared by ETA in FY 2008, “the stratified ratios to be used for the FY 2008 grant and
contract accrual were calculated as an average of the FY 2006 and FY 2007 analysis
data.”

During our testing over the FY 2007 grant accrual accuracy analysis (completed in the
third quarter of FY 2008), we noted that the FY 2008 ratios were calculated using only
the FY 2007 underlying grant data rather than the average of the FY 2006 and FY 2007
data. This error was not detected and corrected by management’s review of the
analysis.

The instance above was caused by the lack of an adequate management review of the
preparation of the grant accrual accuracy analysis and calculation of ratios to be used to
estimate the FY 2008 fourth quarter accrual. Without proper manager review of the
analysis and calculation of accrual ratios, the quarterly grant accrual could be misstated,
causing grant expenses, advances, payables, and undelivered orders to be misstated.
At September 30, 2008, the failure to use the average of FY 2006 and FY 2007 costs in


Prepared by KPMG LLP                                                                         33
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I
the ratio calculation resulted in a $5.7 million difference between the two accrual
calculations.

GAO’s Standards states, “Control activities occur at all levels and functions of the entity.
They include a wide range of diverse activities such as approvals, authorizations,
verifications, reconciliations, performance reviews, maintenance of security, and the
creation and maintenance of related records, which provide evidence of execution of
these activities as well as appropriate documentation. Control activities may be applied
in a computerized information system environment or through manual processes.”

Recommendation

We recommend that the Assistant Secretary for Employment and Training implement
procedures that require a more thorough managerial review of the grant accrual
accuracy analysis and related ratio calculations.

Management’s Response

Management concurs with this finding. ETA has detective controls in place that would
reveal any material error in calculating the accrual ratios or the actual accrual itself,
including comparison to prior quarters and review of the overall amounts and
distribution of the accrual entry. However ETA made immediate corrective actions upon
discovery of this issue, including: additional training for the Financial Systems Specialist
and revisions to the written standard operating procedures for the grant accrual
analysis. Evidence of these corrective actions has already been provided to KPMG.

Auditors’ Conclusion

This recommendation is considered resolved and open. FY 2009 audit procedures will
determine whether this recommendation has been adequately addressed and can be
considered closed.

10. Statement of Differences (FMS-6652) Reconciliation Process

On a monthly basis, agencies report their deposit and disbursement activity to the
Treasury using the SF-224, Statement of Transactions. Upon receiving the SF-224
from DOL, Treasury compares its deposit and disbursement records to the deposit and
disbursement data reported on the agency’s SF-224. If any differences are noted,
Treasury reports these discrepancies on the FMS-6652 for deposits or disbursements.

Treasury requires that federal agencies reconcile their account 1010 and any related
sub-accounts with the FMS-6652. In addition, federal agencies must research and
resolve differences reported on the monthly FMS-6652.



34                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I
During our FY 2008 audit work, we noted the following:

For OASAM’s FMS-6652 reconciliation process for Agency Location Code (ALC)
16012004:

   The following information was not presented or disclosed on the document provided
    to support OASAM’s Region IV March 2008 FMS-6652 reconciliation: (1) the
    individual transactions that reconcile to the total net difference as of March; (2)
    explanations and, if applicable, subsequent corrective actions initiated for each
    individual transaction; and (3) appropriate evidence to substantiate supervisory
    review of the FMS-6652 reconciliation for timeliness, accuracy, and completeness.
   OASAM’s Region V FMS-6652 reconciliation over deposits for the month of March
    2008 did not contain sufficient and appropriate audit evidence to substantiate
    supervisory review of the reconciliation for timeliness, accuracy, and completeness.
   The following information was not presented or disclosed on the document provided
    to support OASAM’s Region II March 2008 FMS-6652 reconciliation: (1) a separate
    reconciliation to substantiate the performance of the FMS-6652 reconciliation; (2) the
    individual transactions that reconcile to the total net difference as of March; (3) the
    causes and subsequent corrective actions initiated for each individual difference
    transaction; and (4) appropriate evidence to substantiate supervisory review of the
    FMS 6652- reconciliation for timeliness, accuracy, and completeness.

For the Employment Service Administration (ESA) ALC 16012013:
       The preparation of the ESA monthly FMS-6652 reconciliation for this ALC is not
        being performed timely.
       Differences reported on the FMS-6652 are not being resolved timely.
        Specifically, we noted that 3 of 20 individual differences examined were
        unresolved for more than 60 business days.

The exceptions for ALC 16012004 occurred because the OASAM Region II accountants
did not review the FMS-6652 report for deposits on a monthly basis. In addition,
OASAM management did not communicate to Regions IV and V district offices the
procedures to perform and document the FMS-6652 reconciliation and related
supervisory review.     The monthly Statement of Differences reconciliation over
disbursements for ALC 16012013 was not prepared timely because of ESA staffing
shortages. Specifically, the employee that was responsible for the performance of the
aforementioned reconciliation retired prior to ESA finding a replacement to assume
these responsibilities.

Reconciliations that are not prepared timely and according to Treasury guidelines
increase the potential risk that the closing balance of Fund Balance with Treasury
(FBWT) is misstated. In addition, differences that are not resolved timely decrease
management’s assurance that the FBWT ending balance is reliable.

Prepared by KPMG LLP                                                                         35
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I

The Treasury’s FBWT Reconciliation Procedures, A Supplement to the Treasury
Financial Manual, (TFM) Volume I, Part 2, Chapter 5100, November 1999
(Reconciliation Procedures), states, “The procedures defined in this document provide
step-by-step instructions on reconciling the Fund Balance with Treasury (FBWT) …
These procedures pertain to Federal agencies that must report receipt and
disbursement activity to Treasury.”

TFM Chapter 5100, section 5125, Background, states, “Agencies should document their
reconciliations and make them available to agency management, auditors and Treasury
if requested … Reconciling FBWT accounts is a key internal control process. It assures
the reliability of the Government’s receipt and disbursement data reported by agencies.
Therefore, agencies must perform timely reconciliations and implement effective and
efficient reconciliation processes.”

GAO’s Standards states, “Internal control and all transactions and other significant
events need to be clearly documented, and the documentation should be readily
available for examination.      The documentation should appear in management
directives, administrative policies, or operating manuals and may be in paper or
electronic form. All documentation and records should be properly managed and
maintained.”

Recommendations

We recommend that the Assistant Secretary for Administration and Management
implement the following monthly reconciliation and review procedures over the FMS-
6652:

1. Ensure that personnel are reviewing the FMS-6652 report, the deposits, and
   disbursements on a monthly basis.
2. Ensure that personnel retain supporting documentation, whether electronic or hard
   copy, to identify: (1) that FMS-6652 reconciliations are performed for deposits and
   disbursements; (2) that these reconciliations are completed timely; (3) that these
   reconciliations are reviewed by someone other than the preparer; (4) a log of
   unresolved differences; (5) explanations for causes of differences; and (6) corrective
   actions taken.
3. Ensure that OASAM management, on a quarterly basis, monitors the quality of the
   performance of newly implemented procedures by obtaining status reports and
   supporting documentation that address the issues noted in the bullets above.




36                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I
In addition, we recommend that the Assistant Secretary for Employment Standards:

4. Require that existing personnel are cross-trained so that individuals are available to
   perform certain duties in the event that responsible parties are absent or unavailable
   to perform their assigned duties.

OASAM Management’s Response

OASAM accepts the recommendations and working with the OCFO, has implemented
the three recommendations in this finding.

Corrective action was taken with staff in the Boston/New York Regional Office to remind
them that the FMS-6652 Statement of Difference for deposits is to be accessed for both
the 16-01-2001 and 16-01-2002 on at least a monthly basis, regardless of activity. Also,
pursuant to the realignment of OASAM’s finance and accounting responsibilities, the
work that was previously carried out by the Boston/New York Region is now being
completed by the Atlanta Regional Office. Consequently, the FMS-6652 Statement of
Difference review will no longer be done by the Boston/New York Regional Office.

The Chicago Region has also already implemented corrective action. The reviewing
official (Regional Finance Officer or Supervisory Accountant) now initials and dates
each of the reconciliation documents during monthly meetings with the Senior
Accountant. These documents are retained in accordance with the Department’s
document retention standards.

ESA Management’s Response

We do not agree with the Notification of Findings and Recommendation (NFR) as
presented. While ESA did not perform a formal reconciliation (i.e., a reconciliation that
included appropriate signatures), differences were identified and addressed. We agree
that the appropriate signatures on the reconciliations were not obtained until the dates
indicated in the NFR due to staffing changes/shortages. However, there is no potential
risk of the Treasury’s fund balance to be misstated since ESA’s Branch of Accounting
and Financial Systems conducts monthly reconciliations and account reviews.
Currently, monthly reconciliations are completed within five business days after the end
of the period and include appropriate signatures. All identified differences are
researched and reviewed in the next reporting cycle.

Auditors’ Conclusion

The recommendations addressed to OASAM are considered resolved and open. FY
2009 audit procedures will determine whether these recommendations have been
adequately addressed and can be considered closed. Regarding the recommendation
to ESA, the response did not provide corrective action to address our recommendation.
Therefore, we consider our recommendation to ESA to be unresolved pending

Prepared by KPMG LLP                                                                         37
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I
completion of corrective action plans with specified timeframes for implementation to
address our recommendation.

11. Supervisory Review of the Monthly Reconciliation of State Deposits

The Bureau of Public Debt (BPD) within Treasury is responsible for recording,
summarizing, and reporting to DOL the amounts collected related to federal and state
tax receipts that affect the Unemployment Trust Fund (UTF) balance. On a monthly
basis, BPD prepares the federal and state tax collection data in an electronic file and
forwards it to the DOL OCFO; this file is subsequently posted in DOL’s general ledger.
As a result, DOL relies on the BPD controls to ensure that the data reported regarding
federal and state tax collection data are complete and accurate. If an examination of
BPD federal and state tax collection data discloses that the amounts are inaccurate,
then the tax revenue recorded in DOL’s general ledger could be potentially misstated.

To compensate for this risk, the Office of Workforce Security (OWS) monitors the
accuracy of the deposit information transmitted to Treasury by the states using the
monthly reports (i.e., ETA-2112, the UI Financial Transaction Summary) submitted to
DOL by the states. In order to monitor the states, the OWS Budget Analyst on a
monthly basis reconciles the deposits reported by the state on the ETA-2112 to the
state deposits reported on Treasury’s UTF Transaction Statement obtained from the
BPD website. This control is designed to detect differences between the deposit
amounts reported to Treasury and DOL.

Based on our inspection of the supporting documentation and re-performance of the
October 2007 and March 2008 state deposit reconciliations, we noted the following
issues that were not detected in the supervisory review over the state deposits monthly
reconciliation:
    One state’s (i.e., Wisconsin) total state deposits was computed incorrectly for
     purposes of reconciling to DOLAR$, and when it was subsequently compared to the
     total state deposits per Treasury, a difference was identified that did not actually
     exist. The amount the state deposited as reported by Treasury was correct.
    One state (i.e., Indiana) did not provide an adequate explanation for the difference
     between the state deposits reported on Treasury’s UTF Transaction Statement and
     the state deposits reported on the state’s ETA-2112. Thus, we could not determine
     if the appropriate corrective action was initiated or taken.
    OWS does not maintain any physical or electronic evidence to support that a
     supervisor or separate personnel other than the preparer reviewed the October 2007
     and March 2008 state deposits reconciliations.

The lack of an adequate review process over the state deposits reconciliations
increases the potential for the following risks: (1) significant differences between the
amount of state deposits reported by Treasury and the amount of deposits reported on
the state’s ETA-2112 may not be properly and timely resolved; (2) misstatements may

38                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I
be recorded in the general ledger and remain undetected, given that DOL relies on the
state deposit information reported by Treasury; and (3) insufficient explanations
regarding differences between the amount of state deposits reported by Treasury and
the States may be accepted without a proper reasonableness assessment.

The discrepancies noted above resulted from the following:
   The deposit amount reported in the reconciliation was calculated incorrectly because
    of the removal of a formula used to calculate the total deposit per state. In addition,
    the supervisory review did not assess the accuracy and completeness of the macro
    used to report the total amount of deposits reported per state by Treasury.
   Insufficient explanations provided by the state (Indiana) were accepted without the
    preparer and/or reviewer performing additional procedures to corroborate the
    explanation provided by the state.
   The reviewer is not required to physically or electronically document the completion
    of the review of the monthly state deposits reconciliation.

We also noted that the procedures above are not required under or documented in DOL
policies.

GAO’s Internal Control Management and Evaluation Tool states, “Appropriate control
activities are employed, such as reconciliations of summary information to supporting
detail and checking the accuracy of summarizations of operations.” In addition, it
states, “this information should be available on a timely basis to allow effective
monitoring of … activities, and transactions and to allow prompt reaction.”

GAO’s Standards also states, “Internal control and all transactions and other significant
events need to be clearly documented, and the documentation should be readily
available for examination.      The documentation should appear in management
directives, administrative policies, or operating manuals and may be in paper or
electronic form. All documentation and records should be properly managed and
maintained.”

Recommendations

We recommend that the Assistant Secretary for Employment and Training direct OWS
management to document and implement procedures over state deposits
reconciliations to include the following:

1. Assessing the accuracy and completeness of the macro used to report the total
   deposits per Treasury in DOLAR$;
2. Assessing the reasonableness of explanations provided for differences between the
   data reported by Treasury and the States, and following up on such explanations as
   needed; and

Prepared by KPMG LLP                                                                         39
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I
3. Documenting (physically or electronically) the completion of supervisory review.

Management’s Response

ETA Management does not concur with the Notification of Finding and
Recommendation. In the Background section of the NFR, the following statement is
made: “This control is designed to detect differences between the deposits amounts
reported to Treasury and DOL as well as detect potential misstatements posted in
the general ledger due to inaccurate deposit information reported by the states”.
Inaccurate deposit information reported by the States has no impact on information
posted in the general ledger. The Department of the Treasury is the source for deposit
information, not information reported by States.

Similarly, the first bullet point listed under “Conditions” is incorrect. It states “a
difference was identified that did not actually exist due to the amount being recorded
incorrectly in DOLAR$.” The amount recorded in DOLAR$ was correct, as it was
obtained from Department of Treasury file. OWS did have an error in its reconciliation,
but the error was internal and it did not affect the financial statements.

Nonetheless, management has reviewed and assessed the macro embedded in the
excel spreadsheet used to conduct this reconciliation. The macro performed as
intended; the reason for the previous oversight was that the macro was not applied to
the full data range. Once the macro was applied to the full data range, the reconciliation
resulted in the deposits reported by the state balancing with the transactions recorded
by Department of Treasury. In addition, management believes that the State’s
explanations for the deposits are reviewed closely. Also, in regards to documenting the
completion of supervisory review, management implemented a supervisory review
process in May 2008. At the completion of the monthly reconciliation the budget team
leader now physically signs the monthly summary sheet.

While, management has taken action to enhance the review process, by March 2009
they will take additional steps to further strengthen it, specifically in pursuing answers
from States for any incomplete or unclear comments.

Auditors’ Conclusion

Although management stated that they do not concur with our recommendations, they
have taken steps to address them. Therefore, these recommendations are considered
resolved and open. FY 2009 audit procedures over the monthly reconciliations will
determine whether these recommendations have been adequately addressed and can
be considered closed.




40                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I
12. Improper Cutoff of Collections Related to Custodial Revenue

OSHA generates revenue by assessing fines and penalties to businesses that do not
meet safety and health standards. In the FY 2006 and FY 2007 audits, we noted that
OSHA collections were not properly cut-off at year end because of the use of Treasury’s
CA$HLINK to report collection information instead of information within the Integrated
Management Information System (IMIS). Consequently, Treasury will not identify
differences that may actually exist. Additionally, if collections are not recognized when
they are received, then reported collections related to civil monetary penalties may be
understated.

As a result, we made the following recommendations:

1. We recommend that the Chief Financial Officer and the Assistant Secretary for
   Occupational Safety and Health develop policies and procedures to record
   collections received near year-end in the general ledger in the proper fiscal
   year.

2. We recommend that the Chief Financial Officer update current policies and
   procedures to specifically indicate what source documents are appropriate to
   use in order to record deposit transactions into DOLAR$ (and indicate what
   source documents are not appropriate source documents for deposit
   transactions recorded in the general ledger).

3. We recommend that the Assistant Secretary for Occupational Safety and
   Health use the deposit information recorded in IMIS as the source
   documentation for deposits to be recorded into DOLAR$.

During our FY 2008 testing of custodial revenue, we noted that differences in timing
between cash collections received and recorded in DOLAR$ for OSHA, ESA, and the
Employment Benefits Security Administration (EBSA) resulted in a net overstatement of
cash collections in the amount of $643,000 as of September 30, 2008. The
overstatment was caused by the following:

   OSHA’s usage of the CA$HLINK Deposit Activity Report as its primary source
    document to record cash collection information into DOLAR$. Also, OSHA does not
    consider this issue significant enough to warrant changing its existing process.
   ESA did not properly record collections to DOLAR$ based on support from its
    subledger at the beginning of FY 2008. As such, deposits were received and
    recorded in the subledger, but not recorded in DOLAR$ until processed by the bank.
    ESA has since implemented a new system, and the issues regarding cash cutoff
    should be eliminated.
   EBSA records collections into DOLAR$ upon receipt of the deposit tickets from the
    lockbox bank. Therefore, custodial revenue is not recorded for collections physically

Prepared by KPMG LLP                                                                         41
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I
     received and processed by the lockbox until receipt of the lockbox deposit
     confirmation by the bank.

In addition, the OCFO has not issued standardized polices regarding the recording of
collections by various DOL agencies to ensure that financial reporting cutoffs are
proper, which has resulted in the above misstatements.

TFM Chapter 3300, Statement of Transactions (SF-224) Reporting by Agencies for
which the Treasury Disburses, section 3300.10 states, “Agencies prepare the monthly
FMS-224 based on: vouchers paid or accomplished by RFCs; Intra-governmental
Payments and Collections (IPAC) transactions accomplished; Cash collections received
for deposit on SF-215s; and Electronic payments/deposits such as those processed
through the Automated Standard Application for Payments (ASAP) System or the
Fedwire Deposit System.”

The USSGL states that, “account 1110, Undeposited Collections, represents collections
on hand, not yet deposited within the same accounting period.”

Additionally, SFFAS No. 7 states, “Cash collections should be based on amounts
actually received during the fiscal period, including withholdings, estimated payments,
final payments, and collections of receivables. Cash collections include any amounts
paid in advance of due dates unless they are deposits … Nonexchange revenues are
inflows of resources that the Government demands or receives by donation. Such
revenue should be recognized when a specifically identifiable, legally enforceable claim
to resources arises, to the extent that collection is probable (more likely than not) and
the amount is reasonably estimable. Nonexchange revenue should be measured by the
collecting entities, but should be recognized by the entities legally entitled to the
revenue (the recipient entities).”

As a result of our FY 2008 testing, we consider the FY 2006 and FY 2007
recommendations unresolved pending completion of a corrective action plan and
timeframes for implementation. In addition, we have modified the first recommendation
as stated below.

Recommendation

We recommend that the Chief Financial Officer:

1. Develop and issue a standardized policy regarding the recording of collections by
   various DOL agencies to ensure that financial reporting cutoffs for custodial activities
   are proper and consistent. Additionally, the Chief Financial Officer should monitor
   agencies’ compliance with the policy.




42                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I
Management’s Response

OCFO agrees with the finding and intends to develop and issue policies and procedures
by March 31, 2009, to standardize the recording of collections by DOL agencies. While
OCFO recognizes that some Agencies disagree with this finding, this new policy will
ensure that collections are recorded in the appropriate period and synchronize
Department practice with Federal Generally Accepted Accounting Principles (GAAP)
and the Treasury Financial Manual (TFM). The standard policy will specify appropriate
source documents to record deposit transactions into DOLAR$. OCFO will monitor
compliance with this standardized policy.

Auditors’ Conclusion

This recommendation is considered resolved and open. FY 2009 audit procedures
over collections will determine whether this recommendation has been adequately
addressed and can be considered closed.

13. Interest Receivable Calculation and Accural Related to Custodial Receivables

In the FY 2006 and FY 2007 audits, we noted that OSHA only records interest
receivable when debt letters are sent to employers or when debt is transferred to
Treasury for debt collection. Additionally, the Mine Safety and Health Administration
(MSHA) omitted one day of interest for each month during the period from November
2005 to December 2006.

As a result, we made the following recommendations:

1. We recommend that the Chief Financial Officer and the Assistant Secretary for
   Occupational Safety and Health develop procedures to accrue and record
   interest receivable on a quarterly basis.

2. We recommend that the Chief Financial Officer and the Assistant Secretary for
   Mine Safety and Health design, test, and implement changes to MSHA’s
   subsidiary ledger to correct errors in the calculation of interest and ensure
   that controls are in place to detect such system errors in the future.

During our FY 2008 testing, we found that agencies within DOL do not use a standard
method for recording interest receivable and penalties due, and lack accruals related to
these receivables for financial reporting purposes. We have identified the following
instances:

   OSHA’s methodology of accruing for interest only when assessment letters are sent
    and when the debt is referred to Treasury does not ensure that the agency’s interest
    receivable balances are appropriately accrued between the time of the last debt


Prepared by KPMG LLP                                                                         43
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I
     letter and financial reporting date. Currently, no method is in place to ensure interest
     is properly stated for receivables that have not been calculated at period end.
    ESA and MSHA’s methodology of accruing for interest on a monthly basis, on the
     anniversary date of the debt, does not ensure that each agency’s interest receivable
     balances are appropriately accrued between anniversary interest calculation and
     financial reporting dates. Additionally, no method is in place to ensure interest is
     properly stated for receivables whose anniversary date does not fall on the financial
     reporting date.

Additionally, OCFO does not disclose in the footnotes the amount of interest due on
delinquent debt that has not been written off or perform a formal assessment that such
disclosure is immaterial to the custodial activity footnote.

The current policies and procedures set forth above were developed for programatic
reasons and were not established with financial reporting criteria in mind. As a result,
the interest receivable balance is understated at period end.

OMB Circular No. A-129, Policies for Federal Credit Program and Non-Tax
Receivables, states, “Interest, penalties, and administrative costs should be added to all
debts unless a specific statute, regulation, loan agreement, contract, or court order
prohibits such charges or sets criteria for their assessment. Agencies shall assess late
payment interest on delinquent debts. Further, agencies shall assess a penalty charge
of not more than six percent (6%) per year for failure to pay a debt more than ninety
(90) days past due, unless a statute, regulation required by statute, loan agreement, or
contract prohibits charging interest or assessing charges or explicitly fixes the interest
rate or charges. A debt is delinquent when the scheduled payment is not paid in full by
the payment due date contained in the initial demand letter or by the date specified in
the applicable agreement or instrument. Agencies shall assess administrative costs to
cover the cost of processing and handling delinquent debt. Agencies must adjust the
interest rate on delinquent debt to conform with the rate established by a U.S. Court
when a judgment has been obtained.”

SFFAS No. 1, paragraph 53 through 55, states, “Interest receivable should be
recognized for the amount of interest income earned but not received for an accounting
period … No interest should be recognized on accounts receivable or investments that
are determined to be uncollectible unless the interest is actually collected. However,
until the interest payment requirement is officially waived by the government entity or
the related debt is written off, interest accrued on uncollectible accounts receivable
should be disclosed.”

The Guide for Managing Loans and Administrative Debt, Chapter 6, Delinquent Debt
Collection of Managing Federal Receivables, states, “The Debt Collection Act of 1982,
as amended (codified at 31 U.S.C. 3717), requires agencies, unless expressly
prohibited or restricted by statute or contract, to assess three separate and distinct
types of late charges on all delinquent debts … Late charges are categorized as
44                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I
interest, penalties, and administrative costs ... The agency will continue assessing these
late charges at the rates established by the agency until final payment is received,
unless debt collection activity is suspended or terminated, the debt is compromised, the
late charges are waived, or the late charges are altered as the result of court judgment.”

As a result of our testing, we consider prior year recommendation No. 1 as unresolved
pending completion of a corrective action plan and timeframes for implementation. This
recommendation is modified below.              Additionally, we consider prior year
recommendation No. 2 as resolved and closed.

Recommendations

We recommend that the Chief Financial Officer:

1. Standardize the procedures for recording accounts receivables related to DOL’s
   custodial activities.   Specifically, interest receivable and penalties related to
   delinquent debt should be accrued up to period end, or until the debt is deemed
   uncollectible and reserved for. In order to accomplish this, the various subledger
   systems should be updated so that interest is automatically calculated and updated
   at period end. If no such change can be implemented, the agencies should perform
   a manual accrual calculation for the interest and post the accrual to the general
   ledger, on a quarterly basis.

2. Implement one of the following procedures: (a) include a disclosure in the custodial
   activity footnote which specifically states the amount of interest due on delinquent
   debt that has not been written off, or (b) complete a formal assessment to determine
   that such interest is immaterial to the custodial activity footnote.

Management’s Response

OCFO agrees with the auditors and plans to standardize the Department’s procedures.
While some Agencies disagree, this new policy will ensure that DOL fully complies with
Federal Generally Accepted Accounting Principles (GAAP) regarding accrual and
reporting on interest earned for all active debts, including in-house debts and those
transferred to Treasury for cross-servicing or offset collection action.

Auditors’ Conclusion

These recommendations are considered resolved and open.          FY 2009 audit
procedures over the monthly reconciliations will determine whether these
recommendations have been adequately addressed and can be considered closed.




Prepared by KPMG LLP                                                                         45
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I
14. Recording Refunds and Collection Fees Related to Custodial Activities

During our FY 2008 audit procedures, we noted 5 instances where refunds or collection
fees related to custodial activities were recorded to the incorrect IAC or general ledger
account. In 3 of the instances, OSHA and EBSA recorded the refunds or collection fees
to IAC 710 instead of the appropriate IAC. IAC 710 corresponds to TAFS 20X1807,
which is appropriately excluded from DOL’s financial statement preparation process.
IAC 710 was established so that refunds issued for collections of cash received by the
agencies in prior fiscal years that had been transferred to Treasury could be properly
recorded and processed. If refunds related to collections of cash from prior years were
issued and recorded in the current year in a DOL TAFS, cash collections for the current
year would be understated. In 2 of the instances, MSHA recorded refunds in the
incorrect IAC and general ledger account.

The above instances resulted because of the lack of policies and procedures
established by the OCFO to address the proper accounting of refunds and collection
fees related to custodial activities. As such, OSHA, MSHA, and EBSA have historically
accounted for refunds and collection fees incorrectly, and custodial revenue reported in
the FY 2008 financial statement footnotes is overstated by $830,690.

SFFAS No. 7 states, “The source and disposition of revenue from taxes, duties (which
are a type of tax), and related fines, penalties, and interest should be measured by the
collecting entities in a manner that enables reporting of (1) cash collections, refunds,
and the "accrual adjustment" necessary to determine the total revenue and (2) cash or
cash equivalents transferred to each of the recipient entities and the revenue amounts
to be recognized by each of them. The collecting entities function in a custodial
capacity with respect to revenue transferred or transferable to the recipient entities. The
collecting entities should not recognize such revenue, but should account for and report
upon the above mentioned custodial activities. … Amounts payable for refunds
(including refund offsets and drawbacks) should be recognized when measurable and
legally payable under established processes of the collecting entities.”

Recommendations

We recommend that the Chief Financial Officer:

1. Establish policies and procedures related to the proper accounting for refunds of
   custodial collections and collection fees.
2. Develop and implement monitoring procedures to ensure that all agencies with
   custodial activities implement the refund and collection fee accounting policies and
   procedures once established.




46                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I
OSHA Management’s Response

OSHA met with the staff involved in recording refunds as soon as we became aware of
this inconsistency and reviewed the appropriate IAC codes with them. We consider this
recommendation resolved and closed for OSHA.

MSHA Management’s Response

MSHA will establish procedures that conform to the new OCFO policies and procedures
after the OCFO publishes the new procedures.

EBSA Management’s Response

NFR 08-23, Refunds and Collection Fees Recorded Improperly in DOLAR$ included
two conditions pertaining to EBSA. The first condition essentially states that refunds
applicable to current fiscal year cash collections were improperly posted in IAC 710. To
correct this condition, EBSA promptly revised its processes to clearly identify and
distinguish refunds applicable to current year collections versus those related to prior
year collections to allow OCFO to properly post said refunds to the appropriate IAC.
This action should resolve and close this particular NFR 08-23 condition. The other
condition cited in NFR 08-23 pertains to the improper recordation of Treasury's
collection fees in IAC 710. Based on discussions at the KPMG/OCFO audit meeting
weeks ago, it is our understanding that OCFO will take appropriate measures, if not
already done so, on behalf of EBSA to correct this condition by recording collection fees
in the appropriate IAC. As previously mentioned to the auditors, all of our agency's
collection fees to the Treasury are transacted in the same fiscal year as the underlying
collection.

OCFO Management’s Response

In summary, not later than March 31, 2009, OCFO will develop and issue policies and
procedures to ensure that fee collections and refunds of collected fees are recorded in
the appropriate period. OCFO will also implement monitoring provisions to ensure
compliance with the established policies and procedures.

Auditors’ Conclusion

These recommendations are considered resolved and open.       FY 2009 audit
procedures will determine whether these recommendations have been adequately
addressed and can be considered closed.




Prepared by KPMG LLP                                                                         47
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I
15. Reconciliations between MSHA Standardized Information System (MSIS) and
    DOLAR$

MSHA’s mission is to ensure safe and healthy work environments for miners by setting
and enforcing standards, providing training, and encouraging continual improvement in
workplace safety and health. MSHA imposes civil penalties for violations of health and
safety standards. The penalties are collected in the field offices, and the deposit
data/checks are subsequently forwarded to US Banks. US Banks scans the checks via
Electronic Check Presentation (ECP) and compiles a listing of deposits. This
information is used to populate the Treasury CA$HLINK system, which can be viewed
by MSHA and other agencies.

MSHA utilizes MSIS to internally track the amounts of these deposits. The deposit
information recorded in MSIS is populated by a Microsoft Excel macro; the data
recorded comes directly from the US Banks listing of individual ECPs. These deposits
are keyed into MSIS manually, and then uploaded to a drive which is accessible by
MSHA Finance.

To record the deposit information into DOLAR$, the MSHA Finance group downloads
the electronic deposit ticket of ECPs each day from US Banks. This U.S. Banks
download is used as the source document for the deposit and is manually recorded in
DOLAR$ at a summary level. MSHA Finance also compares this information to
CA$HLINK to verify the deposit recorded in DOLAR$.

During the FY 2008 audit, we noted that the MSHA monthly reconcilation performed
ensures that MSIS activity is posted in DOLAR$, but does not ensure that all custodial-
related activities are properly recorded in MSIS.

MSHA’s monthly reconciliation uses DOLAR$ data as the beginning balance, reconciles
DOLAR$ ending balance, and does not compare the MSIS ending collections balance
to the DOLAR$ ending collections balance. Additionally, MSHA does not use MSIS, the
subledger, as its source document to record cash collections into DOLAR$. As a result,
the detailed subledger does not support the summary level transactions posted to
DOLAR$. Since a comprehensive reconciliation between DOLAR$ and MSIS is not
completed, MSHA indirectly avoids reporting discrepancies that may exist between the
two systems. As of August 31, 2008, the difference between cash collections recorded
in MSIS and cash collections recorded in DOLAR$ was approximately $321,000.

OMB Circular No. A-123, states, “Agencies and individual Federal managers must take
systematic and proactive measures to (i) develop and implement appropriate, cost-
effective management controls for results-oriented management; (ii) assess the
adequacy of management controls in Federal programs and operations; (iii) identify
needed improvements; (iv) take corresponding corrective action; and (v) report annually
on management controls. “


48                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I
Recommendations

We recommend that the Assistant Secretary for Mine Safety and Health:

1. Revise MSHA’s monthly reconciliation process to incorporate a comparison of the
   MSIS year-to-date (YTD) collections activity as of period end to the DOLAR$ YTD
   collection activity as of period end, and identify and explain any differences.
2. Consider using the deposit information reported in MSIS as the source
   documentation for deposits to be recorded into DOLAR$.

Management’s Response

MSHA agrees that its monthly reconciliation procedures need to be revised to provide
more timely and accurate reconciliations, and noted that the year-end reconciliation was
acceptable. The auditors provided several suggested changes to the reconciliation
procedures and MSHA is incorporating these suggestions in its revised SOPs. MSHA
agrees to consider using MSIS as the source document for deposit information. MSHA
will evaluate the accuracy and effectiveness of this data in the 2nd quarter of FY 2009.

Auditors’ Conclusion

These recommendations are considered resolved and open.       FY 2009 audit
procedures will determine whether these recommendations have been adequately
addressed and can be considered closed.

16. Controls over Internal-Use Software

In FY 2008, we noted that the OCFO does not have a review process in place to
determine that DOL agencies are accurately reporting all costs that are required to be
capitalized or expensed. Additionally, the quarterly Certification for Internal-use
Software Projects Under Development reports do not request sufficient information for
this review to take place, nor do they contain sufficient information to compare the
internal-use software assets and amounts recorded in the Capitalized Asset Tracking
and Reporting System (CATARS) to the internal-use software assets and amounts
reported by the agencies. The situation above increases the risk that balances in
DOLAR$ asset account 1830-Information Technology Software, and the related account
1839-Accumulated Amortization Automated Data Processing (ADP) Software, may be
misstated. In addition, DOL may not be in compliance with SFFAS No. 10, Accounting
for Internal Use Software.




Prepared by KPMG LLP                                                                         49
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I
Recommendations

We recommend that the Chief Financial Officer:

1. Implement a review process to determine that the agency is accurately reporting all
   costs that are required to be capitalized or expensed.
2. Revise the Certification for Internal-use Software Projects Under Development
   reports to include sufficient information on costs capitalized and expensed for the
   fiscal year to date.
3. Develop and implement procedures to compare the internal-use software assets and
   amounts recorded in CATARS to the internal-use software assets and amounts
   reported by the agencies.

Management’s Response

OCFO has a review process in place to determine that DOL accurately reports all costs
that are required to be capitalized or expensed.

OCFO requires each agency to submit a certification form to identify the software
projects in process and their related costs. For example, ETA and EBSA had incurred
significant software costs during FY 2008. OCFO verified that the direct and indirect
costs of these projects were capitalized and transferred to Construction in Progress
(CIP).

In addition to the existing procedures, the Certification for Internal-use Software Projects
under Development has been revised as suggested by KPMG. Each quarter, the
CATARS reconciliation team will review the certification forms to verify that the direct
and indirect costs of projects in CIP that should be capitalized were reported by the
agencies. The Team will also determine if any projects have been completed and
request the agencies to transfer the related costs of any completed projects to Software
in use.

Further, the CATARS reconciliation team will reconcile the costs reported in the
certification forms to costs recorded in CATARS and resolve all differences noted.

Auditors’ Conclusion

These recommendations are considered resolved and open.       FY 2009 audit
procedures will determine whether these recommendations have been adequately
addressed and can be considered closed.

17. Accounting for Costs on Certain Job Corps Contracts

The Office of Job Corps has several contracts with educational organizations to provide
various services. These contracts are administered out of the National Office of Job
50                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I
Corps. The contractors draw down funds through HHS/PMS and submit monthly or
quarterly cost reports to the Office of Job Corps.

During FY 2007, we noted that DOL records drawdowns by contractors as expenses in
general ledger account 6105, Current Operating Expense – Other, for costs related to
Job Corps’ National Training Center (NTC) contracts. However, these drawdowns do
not represent actual costs (goods and services received) incurred by the contractor, but
rather the amount that is supposed to cover the contractor’s immediate cash needs (an
advance). As a result, we made the following recommendations:

We recommend that the Assistant Secretary for Administration and Management:

1. Develop and implement written policies and procedures to properly record
   NTC contractor activities in accordance with SFFAS No. 1, including
   identification of source documents necessary to support the recording of
   these activities.

2. Establish procedures to require the review of the contractor cost reports for
   accuracy and completeness prior to the recording of the associated costs into
   the general ledger, and to take corrective action when a contractor submits an
   inaccurate or incomplete cost report.

In FY 2008, we tested a sample of 41 Job Corps expenses and noted for 3 costs related
to Job Corps contracts that DOL recorded the drawdowns by the contractors as
expenses in Account 6105, Current Operating Expense – Other. Similar to FY 2007,
these drawdowns did not represent actual costs incurred by the contractor, but were
intended to cover the contractor’s immediate cash needs. Therefore, until the
contractor submits a cost report detailing its actual costs for the period, DOL does not
have evidence to support the amount of costs actually incurred.

These exceptions occurred because cost reports are not being used to record activity in
DOL’s general ledger and no review process is in place to ensure contractors are
submitting accurate cost reports. In addition, DOL does not have written policies and
procedures addressing the recording of costs. As a result, DOL could be misstating its
costs and advances related to this activity by recording expenses based on a drawdown
versus the actual cost report.

SFFAS No.1, Accounting for Selected Assets and Liabilities, defines Advances as,
“cash outlays made by a federal entity to its employees, contractors, grantees, or others
to cover a part or all of the recipients’’ anticipated expenses or as advance payment for
the cost of goods and services the entity acquires. Examples include … assets
disbursed under a contract, grant, or cooperative agreement before services or goods
are provided by the contractor or grantee.”



Prepared by KPMG LLP                                                                         51
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I
In addition, GAO’s Standards states, “Control activities occur at all levels and functions
of the entity. They include a wide range of diverse activities such as approvals,
authorizations, verifications, reconciliations, performance reviews, maintenance of
security, and the creation and maintenance of related records which provide evidence of
execution of these activities as well as appropriate documentation.”

Although management implemented certain corrective actions in FY 2008, our FY 2007
recommendations were not fully addressed.          As a result, we consider these
recommendations unresolved pending completion of a corrective action plan and
timeframes for implementation.      These recommendations are redirected to be
addressed to the National Director of the Office of Job Corps instead of the Assistant
Secretary for Administration and Management.

Management’s Response

In response to finding number NFR-07-21 in the FY 2007 audit, the Office of Job Corps
issued new policies and procedures to record and monitor costs for the National
Training contracts on the HHS-PMS draw-down system.

Under the new NTC contracts issued in 2008, the NTC’s are required to submit a 272
report (expense report) through the HHS Payment Management System (PMS). Cost
transactions in DOLAR$ are created with the submission of the 272 report instead of
through draw downs and proper recording to GL account 6105 will occur automatically.

New policies and procedures for monitoring costs include issuance of a new cost
reporting form that includes more extensive draw-down and cost data, and new
procedures for COTR and budget review for contractor submitted costs reports.

Seven of the 12 Job Corps contracts on the HHS-PMS draw-down system were
converted to the new policies and procedures in FY 2008. The remaining five will be
converted in FY 2009.

Auditors’ Conclusion

These recommendations are considered resolved and open.       FY 2009 audit
procedures will determine whether these recommendations have been adequately
addressed and can be considered closed.

18. Reestablishment of the Unemployment Compensation Advisory Council (UCAC)

In the FY 1997 audit (OIG Report No. 12-98-002-13-001), the OIG reported that the
UCAC required by the Social Security Act had not been reestablished. Section 908 of
the Social Security Act makes no provision for delaying the establishment of a new
advisory council, and the issues for which the UCAC is responsible are significant to the
unemployment insurance program.

52                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I

In the FY 1997 report, the OIG made the following recommendation:

We recommend that the Assistant Secretary for Employment and Training ensure
that the Unemployment Compensation Advisory Council is reestablished as
required by Section 908 of the Social Security Act.

The finding and recommendation has been repeated in subsequent audits.

According to section 908 of the Social Security Act, starting in 1992 and “every 4th year
thereafter, the Secretary of Labor shall establish an advisory council to be known as the
Advisory Council on Unemployment Compensation.” The purpose of this council is to
“evaluate the unemployment compensation program, including the purpose, goals,
countercyclical effectiveness, coverage, benefit adequacy, trust fund solvency, funding
of State administrative costs, administrative efficiency, and any other aspects of the
program and to make recommendations for improvement.”

We noted that the last meeting of the Advisory Council on Unemployment
Compensation was in 1997. Since the Social Security Act requires this council to meet
every four years, ETA is not in compliance with this requirement of the Social Security
Act. ETA has proposed an amendment to the Social Security Act in the Unemployment
Compensation Program Integrity Act of 2005, 2006, and 2008 that would require the
Secretary of the Department of Labor to establish an advisory council periodically
instead of every four years; however, Congress has not yet approved this amendment.
As a result, we consider this issue resolved and open until the legislation is amended.

Management’s Response

ETA agrees with the recommendation to continue pursuing amendment of the Social
Security Act with language similar to that found in the Unemployment Compensation
Program Integrity Act of 2006. A copy of the proposed language has been provided to
the auditors for their reference.

Auditors’ Conclusion

This recommendation is considered resolved and open. FY 2009 audit procedures will
determine whether this recommendation has been adequately addressed and can be
considered closed.

19. Monitoring Controls over Child Agency Financial Data

DOL’s Office of Job Corps allocates approximately $167 million to four federal entities
(U.S. Forest Service, National Park Service, Bureau of Indian Affairs, and Bureau of
Reclamation) (i.e., the child entities) to operate 28 Job Corps Centers (i.e., Civilian
Conservation Centers (CCC)) throughout the country. In prior years, DOL was required
Prepared by KPMG LLP                                                                         53
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I
to report the budgetary activity of these budget allocations on its consolidated financial
statements. Effective in FY 2007, DOL (i.e., the parent entity) is required by OMB
Circular No. A-136 to report in its consolidated financial statements both the budgetary
and proprietary accounts and activities related to these allocations to the child entities.

In FY 2007, we noted that DOL had not implemented sufficient monitoring controls to
provide DOL management with assurance that the information being reported by the
child agencies was accurate and complete as of September 30, 2007. For example,
DOL had not established monitoring controls to ensure the operating effectiveness of
the child entities’ controls over FBWT and the other balance sheet accounts.
Additionally, no reconciliation was performed between the detailed cost reports
submitted by each CCC to the aggregate trial balances submitted by each of the four
federal entities and reported in DOL’s consolidated financial statements.

As a result, we made the following recommendation in FY 2007:

We recommend that the Chief Financial Officer and the Assistant Secretary for
Administration and Management work together to develop procedures to
consistently monitor the amounts being reported on the child entities’ trial
balances. At a minimum, these procedures should include procedures to monitor
the child entities’ controls over FBWT and the other significant balance sheet
accounts and to perform quarterly comparisons of amounts being reported on
the CCC cost reports to the amounts being reported in the child entities’ trial
balances.

In FY 2008, the OCFO continued to obtain the summary level trial balances from the
child entities and reported this information in DOL’s consolidated financial statements.
However, during FY 2008, DOL had not implemented sufficient monitoring controls to
provide DOL management with assurance that the information being reported by the
child entities is accurate and complete. We noted that the OCFO did perform a
comparison between the amounts reported by the child entities and recorded in
DOLAR$ against the amounts reported in the detailed cost reports submitted by the 28
CCCs. However, no follow-up was performed regarding the differences encountered in
this comparison. In addition, no review of documentation that supports the line items
included in the detailed cost reports was completed.

Personnel in the Office of Job Corps indicated they did not perform any formal
monitoring procedures other than scanning the detailed cost reports for unusual
balances because they believe it is the child entity’s responsibility to monitor these
costs. The lack of effective monitoring controls over the child entities’ trial balances and
related internal controls at the child entities over balance sheet accounts increases the
risk that amounts being reported in DOL’s consolidated financial statements may be
misstated.



54                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I
OMB Circular No. A-123 states that, “the agency head must establish controls that
reasonably ensure that obligations and costs are in compliance with applicable law,
funds, property, and other assets are safeguarded against waste, loss, unauthorized
use, or misappropriation, and revenues and expenditures applicable to agency
operations are properly recorded and accounted for to permit the preparation of
accounts and reliable financial and statistical reports …”.

Additionally, GAO’s Standards states, “Control activities occur at all levels and functions
of the entity. They include a wide range of diverse activities such as approvals,
authorizations, verifications, reconciliations, performance reviews, maintenance of
security, and the creation and maintenance of related records, which provide evidence
of execution of these activities as well as appropriate documentation. Control activities
may be applied in a computerized information system environment or through manual
processes.”

As a result, we consider the FY 2007 recommendation to be unresolved pending
improvements over the monitoring controls surrounding the child entities’ activities and
balances. This recommendation is modified below.

Recommendation

We recommend that the Chief Financial Officer and the National Director of the Office of
Job Corps work together to develop procedures to consistently monitor the amounts
being reported on the child entities’ trial balances. At a minimum, these procedures
should include procedures to monitor the child entities’ controls over FBWT and the
other significant balance sheet accounts and to properly follow-up on differences
identified during the quarterly comparisons of amounts reported on the CCC cost
reports to the amounts reported in the child entities’ trial balances.

Management’s Response

Job Corps does not concur with the finding. As described below, Job Corps and OCFO
have adequately monitored the child agencies’ financial reporting.

The Office of Job Corps, in conjunction with the OCFO, initiated a 23 point Action Plan
to ensure compliance with Parent-Child requirements. The plan required analysis and
reconciliation of the following eighteen items: 1) Costs reported on the ETA 2110F with
amounts recorded in DOLAR$ (4 items) and to the individual trial balances (4 items); 2)
Analysis of planned to actual expense as reported on the ETA 2110F (4 items); 3)
Individual trial balances to the costs reported in DOLAR$ (3 items), and; 4) Transfers-in
reported by USDA and DOI (3 items). Each of these eighteen items has been
completed for FY08. The reconciliations produced some inconsequential differences
which were researched, determined to be immaterial, and were corrected by the
agencies where necessary.


Prepared by KPMG LLP                                                                         55
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I
Three additional requirements of the Action Plan have been satisfactorily completed: 1)
Financial training for regional project managers; 2) Review of the 2007 PAR for each
agency, and: 3) Review of regional monitoring reports (this is also an on-going
requirement).

The final 2 Action Plan items are currently in process: on-site reviews at the finance
centers of the USDA Forest Service, DOI Bureau of Reclamation, and DOI National
Park Service and field visits to individual centers. Job Corps procured the services of an
outside accounting firm to audit internal agency procedures for the management of Job
Corps funds, to reconcile Treasury Transfers to trial balances, and to assess controls
and compliance with agreed upon procedures. The contract commenced on June 6,
2008. The contract length is 12 months. The audit includes site visits to each agency
HQ and selected Job Corps Centers. The audit statement of work includes the
following:

•    “…Evaluation of controls used by USDA and DOI headquarters to ensure the
     appropriateness of operating costs reported by their Job Corps Centers
•    Review and reconciliation of Treasury fund transfers
•    Review of documentation that supports the line items reported on ETA Form 2110F
     Financial Report
•    Review and documentation that shows how USDA and DOI used Construction,
     Rehabilitation and Acquisition (CRA) funds provided by Job Corps … determination
     if USDA and DOI used the CRA funds for their intended purpose …”

Job Corps has steadily worked to improve not only its monitoring activities but has
worked to improve the USDA/DOI’s understanding of our reporting and documentation
needs. We have provided training and are seeing a marked improvement in the quality
of the agency center 2110F reports. It has taken time for Job Corps to work with the
respective agencies in reporting properly but we are confident that in FY09, and
beyond, our monitoring, analysis, and reconciliation of agency center 2110F reports,
treasury transfers, and trial balances will comply with the parent-child requirements.

In addition to the reviews of internal control over balance sheet accounts being
performed by the independent CPA firm at the finance centers and selected Job Corps
centers, and the other Action Plan points described above, OCFO will:

•    request and review Governmentwide Account Statement (GWA) reports of Fund
     Balances with Treasury as of the end of each quarter,
•    request supporting documentation for other balance sheet accounts with unusual
     balances or unexpected fluctuations, and
•    implement a process to reconcile the DOLAR$ trial balances by IAC to the quarterly
     trial balances provided by the child agencies and adjust any differences noted.




56                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I
Auditors’ Conclusion

Although the Office of Job Corps stated that it does not concur with our
recommendation, the Office of Job Corps and the OCFO have taken steps to address it.
Therefore, this recommendation is considered resolved and open. FY 2009 audit
procedures will determine whether this recommendation has been adequately
addressed and can be considered closed.

20. Accounting for the Federal Employees’ Compensation Act (FECA) Activities

Although DOL does not receive appropriations for FECA benefit payments paid by DOL
on behalf of other Federal entities, we noted that DOL increases expended
appropriations (account 5700) and unexpended appropriations used (account 3107)
when it makes a FECA benefit payment on behalf of another Federal entity. When DOL
collects the reimbursement from the other Federal entity, expended appropriations and
unexpended appropriations used are decreased by the amount collected. For cases
where the benefit payments are made and the related reimbursements are collected in
the same fiscal year, no financial statement impact on expended appropriations and
unexpended appropriations used results. However, for receivables that are due for
collections in one or two years, expended appropriations and unexpended
appropriations used are misstated by the uncollected amount at the end of the fiscal
year. The misstatement amount represents the difference between benefit payments
made in the current year and reimbursements received from other Federal entities for
benefit payments made in the current and prior years.

DOL believes that the entry to increase expended appropriations and unexpended
appropriations used should be recorded to recognize financing sources to fund benefit
payments made.

As a result, expended appropriations and unexpended appropriations used for FECA as
of September 30, 2008, were overstated by $66.7 million. The difference was posted to
the FY 2008 Summary of Audit Differences, which was attached to the FY 2008
Management Representation Letter.

SFFAS No. 7 states, “Appropriations, until used, are not a financing source. They
should be recognized in capital as ‘Unexpended Appropriations’ (and among assets as
‘funds with Treasury’) when made available for apportionment, even if a Treasury
Warrant has not yet been fully apportioned. Unexpended appropriations should be
reduced for appropriations used and adjusted for other changes in budgetary resources,
such as rescission and transfers.”

SFFAS No.7 also states that, “When used, appropriations should be recognized as a
financing source in determining net results of operations. Appropriations are used in
operations when goods and services are received or benefits and grants are provided.


Prepared by KPMG LLP                                                                         57
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I
Goods and services (including amounts capitalized) are considered received when a
liability is established.”

In accordance with the Financial Management Services (FMS) Federal
Intragovernmental Transactions Accounting Policies Guide, the following is the
proprietary entry to record DOL’s payment of FECA benefits on behalf of another
Federal entity:
       Debit 6400 Benefit Expense
        Credit1010 Fund Balance With Treasury

Recommendation

We recommend that the Chief Financial Officer:

1. Formally consult with Treasury to determine the appropriate accounting treatment for
   all FECA-related activities and revise current procedures and transaction codes
   accordingly.

Management’s Response

We do not concur with this finding. Contrary to the Auditors’ statement, “DOL does not
received appropriations for FECA benefit payments…,” the FECA program is funded
from two sources, reimbursable revenue and direct appropriations. We agree that DOL
records expended appropriation (account 5700) and unexpended appropriation used
(3107) for all benefit payments. But later, as OCFO records the accounts receivable that
are due from other Federal agencies those accounts are reversed. The net effect is the
correct balances for those two accounts because these amounts will not be reimbursed
from other agencies; these amounts are covered by the current year appropriation.

Auditors’ Conclusion

We disagree with management’s conclusion because the accounting is not consistent
with the FMS Federal Intragovernmental Transactions Accounting Policies Guide. If
management disagrees with the accounting in the FMS Federal Intragovernmental
Transactions Accounting Policies Guide, the Chief Financial Officer should consult with
Treasury to resolve the difference between the FMS Federal Intragovernmental
Transactions Accounting Policies Guide and current DOL accounting for FECA-related
funding activities. Therefore, we consider our recommendation unresolved pending
completion of corrective action plans with specified timeframes for implementation to
address our recommendation.

21. Controls over the Integrated Federal Employees Compensation System (iFECS)

For the period of October 1, 2007 through March 31, 2008, we tested a sample 119
claimaints and noted the following exceptions:
58                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I
   No current medical evidence was on file for 2 claimants; however, current CA-1032s,
    Request for Information on Earnings, Dual Benefits, Dependents and Third Party
    Settlements, were on file.
   No current CA-1032s were on file for 3 claimants; however, current medical
    evidence was on file.
   No current medical evidence or CA-1032s were on file for 2 claimants.

In addition, no evidence existed that the Claim Examiners (CEs) followed-up with these
claimants timely to obtain the required documentation.

The above instances were a result of CEs being less concerned about the changes in
their status given the severity of their condition and age. As a result, timely follow-up
did not occur as required by the Division of Federal Employees Compensation (DFEC)
program’s FECA procedure manual (the Manual), which resulted in non compliance and
created a risk that benefit payments could be misstated.

Section 2-0812-7 of the Manual states, “All cases require completion of Form CA-1032
on a yearly basis and completion of Form CA-1036 every three years.”

In addition, the Manual states, “The CE should record his or her actions on Form CA-
674a, Checklist for Cases on the Periodic Roll. A review may be considered
accomplished when any follow-up requests for required information have been made
and the CE has initiated any action required on the basis that no reply to the requests
has been received. For instance, after two requests for reports of earnings on Form
CA-1032, the CE is expected to begin suspension proceedings. At this point, the review
may be considered complete, even though further action must be taken in the claim.”

Recommendation

We recommend that the Assistant Secretary for Employment Standards:

1. Continue to stress the importance of CE compliance with the Manual related to
   timely follow-up for information supporting claimants continuing eligibility, regardless
   of the severity of their condition or their age.

Management’s Response

ESA concurs with this finding. DFEC leadership will emphasize the need to do this in
management meetings and National Office Guidance.




Prepared by KPMG LLP                                                                         59
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I
Auditors’ Conclusion

This recommendation is considered resolved and open. FY 2009 audit procedures will
determine whether this recommendation has been adequately addressed and can be
considered closed.

22. Process for Completing Background Checks Investigations

During our review of the DOL and the National Institute of Standards and Technology
(NIST) guidance, we noted that background investigations must be initiated within 14
days of the employee’s start date. The employee’s servicing Human Resource (HR)
office initiates the investigation, and as a rule, HR office customer assignments are as
follows:

    The OIG employees receive HR services from the OIG HR office; and
    All senior executive service, senior level, and political appointees receive HR
     services from the Office of Executive Resources and Personnel Security (OERPS),
     except those who are in the OIG.

Additionally, HR services for employees who do not receive HR services from the OIG
or the OERPS are provided as follows:

    Most employees who work in DOL’s headquarters receive HR services from their
     agency’s HR office;
    All employees who work in DOL’s headquarters in a small agency that does not
     have an agency HR office receive HR services from the Office of Human Resources
     Consulting and Operations (OHRCO) in OASAM’s Human Resource Center (HRC).
    All employees who are assigned to a field location outside of DOL’s headquarters
     receive HR services from the OASAM HR office that services the geographic
     location where the employee works.

The DOL Personnel Suitability and Security Handbook, Chapter 2, The EOD Process,
Section 1, Purpose of Chapter & Overview, part D, When Investigations are required,
states, “DOL requires an investigation to be initiated before an individual first enters on
duty with the Department, or at the most, within 14 calendar days of placement in the
position.”

During the FY 2008 audit, we performed test work over the evidence of background
investigations for selected users with access to the following systems:

    OCFO DOLAR$
    ESA Automated Support Package (ASP)
    OASAM E-Procurement System (EPS)
60                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I

We conducted this testing to determine whether evidence existed that DOL
management was initiating background investigation for new personnel who obtained
access to key DOL financial systems. We noted that for 4 of 8 selected OCFO
employees, 2 of the 5 selected ESA employees, and 4 of the 6 selected OASAM
employees, evidence that a background investigation was properly initiated within 14
days of their hire dates could not be provided.

The initiation and completion of background investigations provides management a key
layer of assurance regarding the integrity of the individuals accessing DOL financial
data. Without proper personnel security measures, such as background investigations
for personnel working with the DOL financial data, the integrity of the information assets
could be inappropriately manipulated.

Some agencies stated that they do not maintain evidence of completed background
investigations on their employees. OERPS stated that DOL policy requires that
servicing HR offices maintain evidence of completed background investigations in the
Official Personnel Folder (OPF) in E-OPF.

Neither the agency nor the servicing HR office nor HRC takes a proactive role in
coordinating with one another to ensure that program offices (including OCFO, OASAM,
and ESA) are aware of their employees’ background investigation requirements or
status.

We noted that People Power can be used to identify when investigations have not been
initiated timely. However, this information is only available after the requirement has not
been met. Currently, no process or tracking mechanism is in place to ensure that HR
offices are initiating background investigations within 14 days of placement in a position.

Recommendation

We recommend the Assistant Secretary for Administration and Management, as the
policy owner:

1. Implement procedures to actively manage the background investigation process for
   all new hires. These procedures should ensure that E-OPF contains evidence that
   background investigations are initiated within 14 days of the individual’s hire date as
   required by the DOL Personnel Suitability and Security Handbook.

Management’s Response

Management agrees with the recommendations to actively manage the background
investigation initiation process.



Prepared by KPMG LLP                                                                         61
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I
OASAM’s Human Resources Center (HRC) has informed the Agency HR Offices of the
findings and plans to monitor the process. Additionally, HRC has begun developing a
standardized Background Investigation Initiation Report from Peoplepower that will be
made available to all HR Offices for their use.

HRC proposes the following actions to proactively manage and improve accountability
in the area of background investigation and ensure that investigations are initiated
within 14 days:

1) HRC will develop and deliver training on Background Investigation Initiation for HR
staff during third quarter of FY 09.

2) HRC will update and reissue the DOL Personnel Suitability and Security Handbook
during the third quarter FY 09 to clarify roles and responsibilities related to initiation of
background investigations and maintenance of records in EOPF.

3) HRC will develop a standardized Background Investigation Initiation Report from
Peoplepower during the second quarter of FY 09 that will pull all new hires for the pay
period and their background investigation status.

4) Beginning with the development of the standardized report listed above HRC will
instruct HR offices to pull the Background Investigation Initiation Report each pay
period. HR Officers will certify the report and retain in their files. The HRC will review
the files during the accountability review.

5) HRC will include Initiation of Background Investigations to the HRC Accountability
Reviews. HRC conducts a full review of each HR office every two years.

Based on the planned activities, management considers the report’s recommendations
resolved, with closure dependent on the completion of the scheduled activities.

Auditors’ Conclusion

This recommendation is considered resolved and open. FY 2009 audit procedures will
determine whether this recommendation has been adequately addressed and can be
considered closed.

23. Controls over the Maintenance of Procurement Supporting Documents

For 2 of 137 procurement expense items tested totaling $3.2 million, the OCFO was not
able to provide sufficient documentation to support the existence and accuracy of the
expenses prior to the completion of the audit. As a result, the projected most likely
overstatement of the FY 2008 procurement expense population of $2.3 billion is $162.9
million.


62                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                       Exhibit I
Per the GAO’s Standards, “Controls over the design and use of records help provide
reasonable assurance that expense transactions are recorded. Such controls include
receiving reports, inspection documents, purchase orders, and other information such
as vendor invoices, or other documents used to record delivered orders and related
liabilities to provide assurance that all and only valid transactions are recorded.”

GAO’s Standards also state, “Internal control and all transactions and other significant
events need to be clearly documented, and the documentation should be readily
available for examination.      The documentation should appear in management
directives, administrative policies, or operating manuals and may be in paper or
electronic form. All documentation and records should be properly managed and
maintained.”

The Code of Federal Regulations, Title 29 section 97.36 (i) (10), requires access to the
Comptroller General of the United States, or any of their duly authorized representatives
to any books, documents, papers, and records of the contractor which are directly
pertinent to that specific contract for the purpose of making audit, examination,
excerpts, and transcriptions. Retention of all required records is to be made for three
years after final payments are made and all other pending matters are closed.

Recommendation

We recommend that the Chief Financial Officer:

1. Ensure that the OCFO maintain a complete set of supporting documentation for
   each transaction that is readily available for examination.

Management’s Response

OCFO disagrees with the auditors’ condition, conclusions, effect and recommendation.
The policy of the OCFO is to ensure that all recorded transactions are adequately
supported. Adequate support depends on the nature of the transactions.

One of the transactions cited by the auditors was a $3.3 million accrual related to the
development of DOL’s new general ledger system. OCFO believes that this transaction
was adequately supported. Accrued payables are generally not supported by vendor
invoices or receiving reports because these documents are not always available when
payables are recorded. The accrual was supported by the payment schedule in contract
DOLJ089427467. The auditors were advised of the source of the entry but declined to
accept it as adequate support. The contract specifies a payment of $3,270,535 after the
completion of Phases I and II which consisted of planning activities and requirement
definition.

Guided by the conservatism principle, OCFO accrued the full cost of Phase Two rather
than prorating the amount due. Phase Two began on July 7, 2008 and ended on

Prepared by KPMG LLP                                                                         63
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Exhibit I
December 9, 2008. Upon further review, OCFO now believes that this accrual was
overstated by approximately $1.4 million based on a pro-ration of the days elapsed from
July 7, 2008 through September 30, 2008. Thus, the additional unsupported expenses
of $163 million projected by the auditors are probably significantly overstated. However,
since the auditors did not disclose the sampling parameters, or the number of
transactions and dollar value of the universe, OCFO cannot properly respond to the
findings.

Further, two errors in a sample of 137, or a sample error rate of 1.5%, produces an
upper error range of 3% which is considerably below the 7% tolerable error rate for a
low control risk assessment according to the AICPA audit sampling guide. Thus, high
reliance can be placed on DOL’s internal control.

In conclusion, OCFO believes that the conditions identified are isolated instances, are
not indicative of control deficiencies and, therefore, a recommendation is not warranted.

Auditors’ Conclusion

We disagree with the OCFO conclusion. The OCFO staff did not provide sufficient
documentation by the end of the audit. Therefore, we consider our recommendation
unresolved pending completion of corrective action plans with specified timeframes for
implementation to address our recommendation.




64                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-09-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2008
                                                                                   Appendix A

Appendix A
                        ACRONYMS AND ABBREVIATIONS
ALC         Agency Location Code
ASP         Automated Support Package
BPD         Bureau of Public Debt
CAMO        Capitalized Asset Management Officer
CATARS      Capitalized Asset Tracking and Reporting System
CE          Claims Examiner
CFO         Chief Financial Officer
CIO         Chief Information Officer
CIP         Construction in Progress
CITS        Closeout Inventory Tracking System
CRA         Construction, Rehabilitation and Acquisition
CY          Calendar Year
DBC         Departmental Budget Center
DFEC        Division of Federal Employees Compensation
DFSS        Division of Financial and System Services
DLMS        Department of Labor Manual Series
DOL         U. S. Department of Labor
DOLAR$      Department of Labor Accounting and Related Systems
EBSS        Enterprise Business Support System
ECP         Electronic Check Presentation
EPS         E-Procurement System
ESA         Employment Standards Administration
ETA         Employment and Training Administration
FAR         Federal Acquisition Regulations
FBWT        Fund Balance with Treasury
FECA        Federal Employees Compensation Act
FFMIA       Federal Financial Management Improvement Act
FMS         Financial Management Service
FPO         Federal Project Officer
FY          Fiscal Year
GAAP        Generally Accepted Accounting Principles
GAO         Government Accountability Office
GCS         Grants Closeout System
GFRS        Governmentwide Financial Report System
G/L         General Ledger
GOTRs       Grant Officer Technical Representatives
GPRA        Government Performance and Results Act
GTS         Grants Tracking System
GWA         Governmentwide Account Statement
HHS/PMS     Health and Human Services/ Payment Management System
HR          Human Resource

Prepared by KPMG LLP                                                                       65
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-09-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2008
Appendix A
HRC         Human Resource Center
IAC         Internal Accounting Code
IG          Inspector General
iFECS       Integrated Federal Employees Compensation System
ILAB        Bureau of International Labor Affairs
IMIS        Integrated Management Information System
IT          Information Technology
MD&A        Management’s Discussion and Analysis
MSHA        Mine Safety and Health Administration
MSIS        MSHA Standardized Information System
NFR         Notification of Finding and Recommendation
NIST        National Institute of Standards and Technology
NTC         National Training Center
OASAM       Office of the Assistant Secretary for Administration and Management
OCFO        Office of the Chief Financial Officer
ODEP        Office of Disability Employment Policy
OERPS       Office of Executive Resources and Personnel Security
OFI         Office of Fiscal Integrity
OHRCO       Office of Human Resources Consulting and Operations
OIG         Office of Inspector General
OMB         Office of Management and Budget
OPF         Official Personnel Folder
OPS         Office of Procurement Services
OSHA        Occupational Safety and Health Administration
OWCP        Office of Workers' Compensation Programs
OWS         Office of Workforce Security
PAR         Performance and Accountability Report
PBGC        Pension Benefit Guaranty Corporation
PP&E        Property, Plant and Equipment
PRB         Procurement Review Board
RCC         Responsibility Center Code
RSI         Required Supplementary Information
RSSI        Required Supplementary Stewardship Information
SBR         Statement of Budgetary Resources
SFFAS       Statement of Federal Financial Accounting Standards
SGL         Standard General Ledger
SNC         Statement of Net Cost
TAFS        Treasury Account Symbol
TFM         Treasury Financial Manual
UCAC        Unemployment Compensation Advisory Council
UDO         Undelivered Orders
UI          Unemployment Insurance
USSGL       U.S. Government Standard General Ledger
UTF         Unemployment Trust Fund
VETS        Veterans’ Employment and Training Service

66                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-09-006-13-001
